<html>
<title> - S. 724, S. 514, S. 1058, AND H.R. 1294</title>
<body><pre>[Senate Hearing 110-686]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-686
 
                 S. 724, S. 514, S. 1058, AND H.R. 1294

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

 S. 724, LITTLE SHELL TRIBE OF CHIPPEWA INDIANS RESTORATION ACT OF 2007

       S. 514, MUSKOGEE NATION OF FLORIDA FEDERAL RECOGNITION ACT

 S. 1058, GRAND RIVER BANDS OF OTTAWA INDIANS OF MICHIGAN REFERRAL ACT

   H.R. 1294, THOMASINA E. JORDAN INDIAN TRIBES OF VIRGINIA FEDERAL 
                        RECOGNITION ACT OF 2007

                               __________

                           SEPTEMBER 25, 2008

                               __________

         Printed for the use of the Committee on Indian Affairs


                    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                        U.S. GOVERNMENT PRINTING OFFICE

46-266 PDF                    WASHINGTON : 2009

___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001



                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 LISA MURKOWSKI, Alaska, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            TOM COBURN, M.D., Oklahoma
DANIEL K. AKAKA, Hawaii              JOHN BARRASSO, Wyoming
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
MARIA CANTWELL, Washington           GORDON H. SMITH, Oregon
CLAIRE McCASKILL, Missouri           RICHARD BURR, North Carolina
JON TESTER, Montana
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel






                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 25, 2008...............................     1
Statement of Senator Dorgan......................................     1
Statement of Senator Murkowski...................................    12
    Letter from Hon. Mel Martinez................................    44
Statement of Senator Tester......................................    12

                               Witnesses

Fleming, R. Lee, Director, Office of Federal Acknowledgment, U.S. 
  Department of the Interior.....................................    35
    Prepared statement...........................................    37
Kaine, Hon. Timothy M., Governor, Commonwealth of Virginia.......     2
    Prepared statement...........................................     4
Moran, Hon. James P., U.S. Representative from Virginia..........     8
    Prepared statement...........................................     9
Rountree, Helen C., Ph.D., Professor Emeritus, Department of 
  Anthropology, Old Dominion University..........................    28
    Prepared statement with attachment...........................    29
Sinclair, Hon. John, President, Little Shell Tribe of Chippewa 
  Indians of Montana.............................................    13
    Prepared statement...........................................    14
Tucker, Hon. Ann Denson, Chairwoman, Muscogee Nation of Florida..    20
    Prepared statement...........................................    21
Webb, Hon. Jim, U.S. Senator from Virginia.......................     6
    Prepared statement...........................................     7
Yob, Hon. Ron, Chairman, Grand River Bands of Ottawa Indians.....    23
    Prepared statement...........................................    25

                                Appendix

Adams, Hon. Kenneth, Chief, Upper Mattaponi Indian Tribe, 
  prepared statement.............................................    71
Adkins, Hon. Gene, Chief, Chickahominy Indian Tribe-Eastern 
  Division, prepared statement...................................    69
Adkins, Hon. Stephen R., Chief, Chickahominy Indian Tribe, 
  prepared statement.............................................    72
Adkins, Wayne, President, Virginia Indian Tribal Alliance for 
  Life, prepared statement.......................................    75
Barton, Rev. Jonathan M., General Minister, Virginia Council of 
  Churches, prepared statement...................................    67
Steele, Jr., James, Chairman, Montana-Wyoming Tribal Leaders 
  Council, letter to Senator Tester..............................    77
Tucker, Hon. Ann Denson, prepared statement attachments..........    78
Warner, Hon. John, U.S. Senator from Virginia, prepared statement 
  with attachment................................................    49



                 S. 724, S. 514, S. 1058, AND H.R. 1294

                              ----------                              


                      THURSDAY, SEPTEMBER 25, 2008


                                       U.S. SENATE,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:15 p.m. in room 
628, Dirksen Senate Office Building, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. The Committee will come to order. This is a 
hearing of the Indian Affairs Committee. We are going to be 
considering four pieces of legislation today to provide Federal 
recognition to certain tribes in Virginia, Montana, Michigan, 
and Florida.
    I thank my colleagues for being here and we have three 
elected officials who are here to begin the testimony as 
witnesses today.
    The Committee has held two hearings to examine the Federal 
acknowledgment process. The four bills that we have before us 
would provide Federal recognition to nine Tribal groups who 
have partitions currently pending before the Administration.
    I think it is quite clear the process for acknowledgment is 
broken. These things take an unbelievably long time. We have 
had a lot of testimony about that. The costs are borne by the 
petitioning group, with no assistance from the Federal 
Government. The acknowledgment process has limited resources, 
limited staff, and limited funding.
    I will make some other comments about this in a few 
minutes. We have three elected officials here, including 
Governor Kaine, Congressman Moran, and Senator Webb. I would 
like to take their testimony and then we will break and come to 
the business meeting, which should just take us five minutes, 
and then we will have the other witnesses. That will be, I 
think, more convenient for the three of you. We very much 
appreciate your attendance and your desire to testify on behalf 
of legislation pending.
    Would that be satisfactory with you?
    Senator Murkowski. Absolutely. Thank you.
    The Chairman. Senator Barrasso is on the phone; he has a 
portion of this business meeting. I think that is the way we 
will handle it.
    Governor Kaine, welcome to the Committee. We thank you for 
being here today with your colleagues.
    Governor Kaine. Thank you, Mr. Chairman.
    The Chairman. The full statement of all three will be made 
a part of the permanent record, and we would recognize you, 
then our colleague Senator Webb, and then Congressman Moran.
    Governor Kaine. Excellent.

 STATEMENT OF HON. TIMOTHY M. KAINE, GOVERNOR, COMMONWEALTH OF 
                            VIRGINIA

    Governor Kaine. Thank you, Mr. Chairman and members of the 
Committee. The testimony has been filed, so I will just 
summarize a couple of points.
    I first want to begin by thanking my Virginia colleagues 
here, Senator Webb and Congressman Moran, for their great 
advocacy on behalf of the Virginia tribes.
    Beginning in 1607, English settlers in Virginia began to 
interact with these great tribes of Virginia, and these stories 
are known to virtually all Americans, the stories of Pocahontas 
and Chief Powhatan, John Smith, John Rolfe, and others. It is 
not an exaggeration to say that the Jamestown Settlement that 
was the first English settlement in the New World would not 
have survived had it not been forbearance and actual assistance 
of these tribes to the English who settled in 1607.
    Yet, despite the fact that these stories of the interaction 
between English and these tribes are among the best known in 
our collective history, none of the Virginia tribes are among 
the 560-plus Federal tribes that have been recognized. I think 
there are two basic reasons for that. It seems like a kind of 
disharmony. I think there are two basic reasons why these 
tribes have not been recognized.
    First, they made peace and began to integrate into society 
in 1677. Before there was the United States of America, their 
treaties were with England. So England has recognized these 
tribes since 1677. But because they didn't enter into treaties 
with the United States Government, that has been a reason that 
they haven't been recognized. And I don't think, in retrospect, 
they should be penalized for having early decided to begin 
peaceful relations with the settlers who are our ancestors.
    The second reason is a more sinister reason. Beginning in 
the 1920s--and the Committee is well aware of these facts from 
earlier hearings, I know, and testimony--there was a 
practitioner, really, a promoter of the Eugenics movement in 
Virginia who became head of the State Bureau of Records, a guy 
by the name of Walter Plecker. Plecker ran this bureau under 
this fiat. The decision was made that all Virginians had to be 
identified either as white or colored.
    So the Indians, who had maintained their identity for these 
hundreds of years, were required to change their identity on 
all official documents to colored. If they did not, they were 
subject to criminal penalties, and many were actually 
imprisoned because of this. If members of Virginia Indian 
tribes wanted to marry as Indians, they had to leave the State 
to do so.
    So there was, for a period of 40 years, until this matter 
was struck down by the courts in the 1960s, an official State 
policy, sadly, to the shame of our Commonwealth, that 
systematically denied members of these Indian tribes their 
rightful ability to claim their heritage, and that has made the 
documentation for some of these tribes very difficult.
    To my way of understanding, and I am not a historian, but 
those are the two reasons why these tribes have never been 
recognized: they laid down arms and made peace in the 1670s and 
then their collective heritage was denied by Commonwealth 
policy during the 1900s.
    Beginning the 1980s, Virginia realized we need to clean the 
air and do the right thing, so these tribes have been 
recognized by the Commonwealth of Virginia, beginning in 1983. 
But we are strongly of the notion that neither of those two 
reasons should be an obstacle to these tribes in obtaining 
recognition today.
    Virginians consider this a matter of fundamental justice 
and really an acknowledgment of the fact that we would not be 
the modern Virginia we were had these tribes not essentially 
supported, in those early years, the settlement at Jamestown 
Island. Relationships were uneasy, but there were a number of 
times where, had it not been for the support of these tribes, 
that Jamestown Settlement experiment would have ended, as had 
earlier experiments in Virginia.
    I will just conclude and tell a story. This has been a 
matter of real passion for me. I mentioned in my inaugural 
address wanting to finally turn the chapter and acknowledge 
these Indian tribes, but about a year after I was inaugurated 
in Williamsburg, I went to England on the commemoration of the 
sailing of the three ships that came to Jamestown Island in 
December of 1606, 400 years later I was in England, and my wife 
and I and my kids paid a visit to St. George Parish in 
Gravesend, which is where Pocahontas is buried.
    Pocahontas married the English tobacco planter, John Rolfe, 
went to England for a time, was presented at court, and then 
was getting ready to come back to Virginia, but when she was on 
the ship going down the Thames, became ill, was taken ashore 
and died in this little tiny community Gravesend, at the mouth 
of the Thames, where it empties into the English Channel.
    The English in that parish have taken care of her memory in 
exquisite way. There is a beautiful statute of Pocahontas 
outdoors; the chapel is dedicated to her; there are 
inscriptions of Pocahontas, she is buried underneath the 
chapel; and the English have cared for her in amazing ways. But 
as I was sitting in this chapel, thinking about her journey and 
this legacy of the American Indians in Virginia, I looked on 
either side of the alter there are two stain glass windows, and 
one is a stained glass window of Rebecca, which was Pocahontas' 
baptismal name; the other window was Ruth. And I looked at that 
and I was trying to remember from my history whether there was 
a Ruth in the Pocahontas story, and it suddenly struck me, no, 
there wasn't; it is the Old Testament Ruth from the Book of 
Ruth.
    I am sure you remember those great powerful words from the 
King James Bible. Naomi moved to a strange land and went with 
her husband and her sons, and her sons then married women from 
that strange land, Moab, foreign women. Her husband and sons 
died, so then Naomi is in this strange land with these 
daughters from the land and she decides to move back to Judea. 
And when she decides to move back, her daughters-in-law want to 
go back with her. She says, no, stay here, marry again, have 
more kids; and one of the daughters, Orpha, stays, but Ruth 
says, no--and these are the beautiful words: whither thou 
goest, I will go. Whither thou lodgest, I will dwell. Your 
people shall be my people. Your God shall be my God; and when 
you die, so there I will die and I will be buried.
    It is a great story, and obviously the Ruth window is in 
that chapel to signify the union not just of John Rolfe and 
Pocahontas, but the union of these Virginia Indians and these 
English settlers, and it strikes me that that is a fitting 
story about the union of these Virginia Indian tribes and 
Virginia. They have become part of us; they have been in our 
schools, they have worked in our fields, worked in our 
factories, served in all of our wars from the Revolution to the 
current day; they laid down arms and made peace with those who 
came to Virginia beginning in the 1670s.
    And it just strikes me that that is worth something, that 
that has a value, and that there ought to be an acknowledgment 
of these hundreds of years of living peacefully; and this is 
something that Virginians--not just Virginia Indians, but 
Virginians--very, very much want to do.
    Britain has recognized these tribes since 1670 and Virginia 
finally realized we needed to do it in the 1980s we got onboard 
and recognized these tribes, and it is our earnest, earnest 
hope that the Federal Government will recognize them as well. 
Thank you, Mr. Chairman.
    [The prepared statement of Governor Kaine follows:]

Prepared Statement of Hon. Timothy M. Kaine, Governor, Commonwealth of 
                                Virginia
    Thank you for the opportunity to speak with you today in support of 
Federal Recognition for Virginia's Native American Tribes. We are proud 
of Virginia's Native Tribes and the contribution their communities have 
made to our Commonwealth and the Nation.
    I am here today because recognition of these Tribes by the Federal 
Government is long overdue.
    As a part of my Inaugural Address on January 14, 2006 at the 
Colonial Capital in Williamsburg, Virginia, I stated:

        ``Our Virginia might not exist today were it not for the 
        generosity extended to those first settlers by the native 
        Virginia tribes living in this region. Without the hospitality 
        of Chief Powhatan . . . those in Jamestown would have perished. 
        . .  And, we should use this historic time to help those who 
        first helped us by working with the Federal Government to see 
        that Virginia's native Indian tribes are finally recognized.''

    Almost immediately after first landing at Jamestown in 1607, the 
early English settlers and explorers came into contact with the 
Virginia Tribes living throughout Eastern Virginia. While the 
relationship between the Native Tribes and the English settlers was not 
always easy, there can be little doubt that had it not been for 
accommodations on both sides, the settlement would not have survived. 
Indeed, Virginia's Native American Tribes played an integral role in 
helping the settlers survive those first harsh winters.
    One year after the 400th anniversary of the first permanent English 
Settlement at Jamestown, it is especially tragic that these tribes 
still have not received equal status with the 562 other Federally 
Recognized Tribes in the United States.
    How can we commemorate their history and not recognize their 
existence? Now is the time to reconcile history. Let us, once and for 
all, honor their heritage. A heritage, I might add, that has been 
sorely tested by centuries of racial hostility and state-sanctioned 
coercive actions.
    The eight Virginia Tribes--the Chickahominy, Eastern Chickahominy, 
Mattaponi, Monacan Indian Nation, Nansemond, Pamunkey, Rappahannock and 
the Upper Mattaponi--are unique. Unlike most tribes that obtained 
federal recognition when they signed peace treaties with the Federal 
Government, tribes in Virginia signed their peace treaties with the 
British Monarchy.

  <bullet> Most notable among these was the Treaty of 1677 between 
        Virginia's Tribes and Charles the II--well before the 
        establishment of the United States. This treaty has been 
        recognized by the Commonwealth of Virginia every year for the 
        past 331 years when the Governor of Virginia accepts tribute 
        from the Tribes in a ceremony now celebrated at the State 
        Capitol.

    However, while the Virginia Tribes have received official 
recognition from the Commonwealth of Virginia, acknowledgement and 
officially recognized status from the federal government has been 
considerably more difficult due to systematic mistreatment over the 
past century.
Recent History of Tribal Recognition Issue in Virginia
    For 34 years, from 1912 to 1946, Walter Ashby Plecker, at the 
Virginia Bureau of Vital Statistics, led an effort to actively destroy 
vital records and evidence of Indian existence in the Commonwealth.
    This practice was supported when the eugenics movement was endorsed 
by Virginia Universities and the Virginia General Assembly enacted the 
Racial Integrity Act in 1924--a race based statue that forced all 
segments of the population to be registered at birth in one of two 
categories ``white'' or ``colored''. From that point on no reference 
was allowed for other ethnic distinctions and no reference was allowed 
for Indian Tribal peoples in Virginia. Members of Virginia's Tribes 
were denied their identities as Native peoples.
    Essentially, Virginia declared, by law and the systematic altering 
of key documents, that there were no Indians in the Commonwealth as of 
1924. The passage of these race based statutes in Virginia made it 
criminal for Native peoples to claim their Indian Heritage. For 
instance, married couples were denied marriage certificates or even 
forbidden to obtain the release of their newborn child from a hospital 
until they changed their ethnicity on the state record to read 
``colored.''

  <bullet> Ironically, 1924 is the same year that the Federal 
        Government guaranteed Native Americans full citizenship and the 
        corollary right to vote.

    The Racial Integrity Act was not struck down by the Federal Courts 
until 1967.
    From 1983-1989 each Tribe gained official Recognition in the 
Commonwealth of Virginia.
    In 1997, then Governor George Allen signed legislation 
acknowledging the ``paper genocide'' of Indians in Virginia. This 
legislation provided that state records be corrected that had been 
deliberately altered to list Virginia Indians on official state 
documents as ``colored.'' In 1999, the Virginia General Assembly 
adopted a resolution calling upon Congress to enact legislation 
recognizing the Virginia Tribes.
    Each of the tribes have also petitioned the U.S. Department of 
Interior and the Bureau of Indian Affairs (BIA) for official 
recognition under the process set forth in 25 CFR Part 83, ``Procedures 
for Establishing that an American Indian Group Exists as an Indian 
Tribe.'' The Virginia Tribes have also submitted letters of intent and 
partial documentation to petition for Federal acknowledgment.
    Unfortunately, these applications have been denied as incomplete. 
Without proper records and complete documentation the Tribes cannot 
fulfill the requirements of the BIA process.
    Helen Rountree, noted anthropologist and expert on Native-Americans 
in Virginia, has spent her life documenting the Virginia Tribes. 
Through her thorough analysis and research the Commonwealth of Virginia 
was provided with sufficient authentication to officially recognize 
these tribes. I believe that that research should also be sufficient to 
address the damage of the Racial Integrity Act era and meet the BIA's 
criteria.
Need for Congressional Action
    It is clear that political action is needed to remedy what 
bureaucracies cannot fix. Justice begs for a congressional response.
    Six of the Tribes first came to Congress seeking recognition in 
1999. They joined together to request Congressional action on their 
application for Federal Acknowledgement through the ``Thomasina E. 
Jordan Indian Tribes of Virginia Federal Recognition Act'' (this year 
it is H.R. 1294).
    The six Tribes view Federal recognition as a basic issue of 
equality with the other 562 tribes.
    Under the United States Constitution Indian Commerce Clause, 
Congress has the authority to recognize a ``distinctly Indian 
community'' as an Indian tribe. I believe that the Tribes' situation 
clearly distinguishes them as excellent candidates for Congressional 
action.
    Under H.R. 1294, the six Tribes would finally, and at long last, be 
granted federal recognition. At the same time, I feel that the 
safeguards provided in this legislation would address some Virginians' 
concerns about Class III style gaming in the Commonwealth. Indeed, this 
legislation would give both the Governor and the General Assembly 
strict control over any possibility of the development of Indian 
Gaming.
    I commend the committee for giving its time and attention to the 
Thomasina E. Jordan Indian Tribes of Virginia Federal Recognition Act. 
I would like to especially thank Chairman Byron Dorgan (D-ND) for his 
leadership on this important issue.
    I would also like to thank Senator Jim Webb (D-VA) for his 
important work on behalf of the native peoples of Virginia and his 
testimony today. I am also heartened by the bipartisan Virginia 
Delegation support for H.R. 1294 and thank Representatives Jim Moran 
(D-VA), Tom Davis (R-VA), and Bobby Scott (D-VA) for their original co-
sponsorship of the legislation.
    It is time for these Virginia native peoples to be recognized by 
their own country. Recognition of the Tribes of Virginia is long 
overdue.
    Congress has the power to recognize these Tribes. It has exercised 
this power in the past, and it should exercise this power again with 
respect to our Virginia Tribes. Our recent commemoration of the 400 
years of modern Virginia history will be incomplete without successful 
Federal recognition of these Virginia Tribes.
    It is time to finally right an historic wrong for Virginia and the 
Nation.
    Thank you for the opportunity to testify today on this important 
issue and I welcome your questions.

    The Chairman. Governor, thank you very much for your 
eloquent testimony. We appreciate you being at the Committee 
today.
    Next we will hear from Senator Jim Webb.

                  STATEMENT OF HON. JIM WEBB, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. Thank you, Mr. Chairman, Senator Murkowski, 
Senator Tester. I do appreciate your willingness to hold this 
hearing so late in the Congress, and I am really pleased to be 
joined here by Governor Kaine. There is not a whole lot on the 
persuasion side that I could add to what he just said. I am 
also pleased to be here with Congressman Jim Moran, who has 
been a long-time supporter of this proposition.
    This is not a new issue for your Committee.
    First of all, I have a longer piece of testimony that I 
would ask be submitted for the record.
    The Chairman. Without objection.
    Senator Webb. And I understand the reluctance from Congress 
to grant this type of recognition, as opposed to the usual BIA 
administrative process. I just want to assure you that I have 
not taken this issue lightly, that I agree in principle that 
Congress generally should not be determining whether or not 
native tribes deserve Federal recognition, but this is a fairly 
unique situation, as Governor Kaine laid out.
    I spent a good bit of time, over several months, asking 
hard questions about these particular issues and the issue of 
lineal descent and record-keeping and the miscegenation laws in 
Virginia, and many barriers that were placed against these 
particular tribes that you don't really see in the cases that 
you have coming before you.
    For those reasons, I became a strong proponent that this 
sort of recognition should be given and should be given by the 
Congress. It is almost impossible--it is not just lengthy, it 
is almost impossible for this particular situation to be solved 
through the regular BIA process, and that is the reason that I 
joined my colleagues several months ago in urging this 
legislation be passed and that is the reason that I am here 
today.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Webb follows:]

    Prepared Statement of Hon. Jim Webb, U.S. Senator from Virginia
    Thank you, Mr. Chairman and members of the Committee. I am honored 
to be here today to show my strong support for the ``Thomasina E. 
Jordan Indian Tribes of Virginia Federal Recognition Act of 2007'' 
(H.R. 1294). I am pleased to be joined by Virginia Governor Tim Kaine 
and Congressman Jim Moran, both of whom have been strong advocates for 
Virginia's Native American Tribes. I would also like to acknowledge and 
thank the Chief's of the six Virginia tribes and all the members 
present here today.
    I appreciate your willingness to hold this hearing. This is not a 
new issue for this Committee and you have heard support for these six 
Virginia tribes from many individuals throughout the 15 years since 
they began seeking federal recognition. These six tribes are the 
Chickahominy, Chickahominy Indian Tribe Eastern Division, the Upper 
Mattaponi, the Rappahannock, the Monacan, and the Nansemond Indian 
Tribe.
    I am here today to urge the Committee to approve legislation 
recognizing the six Virginia tribes that began the administrative 
recognition process so long ago. The tribes covered by this bill gained 
state recognition in the Commonwealth of Virginia between 1983 and 
1989. I believe it is appropriate for them to finally receive the 
federal recognition that has been denied for far too long.
    Mr. Chairman, I understand the reluctance from Congress to grant 
any Native American tribe federal recognition through legislation 
rather than through the BIA administrative process. I have not taken 
this issue lightly, and agree in principle that Congress generally 
should not have to determine whether or not Native American tribes 
deserve federal recognition.
    Earlier this year the BIA's Office of Federal Acknowledgment came 
out with new guidelines on implementing the criteria to determine 
federal recognition. While I applaud improvements to the process, this 
still does not change the impact that racially hostile laws formerly in 
effect in Virginia had on these tribes' ability to meet the BIA's seven 
established recognition criteria.
    Virginia's unique history and its harsh policies of the past have 
created a barrier for Virginia's Native American Tribes to meet the BIA 
criteria, even with the new guidelines. Many Western tribes experienced 
government neglect during the 20th century, but Virginia's story was 
different.
    First, Virginia passed ``race laws'' in 1705, which regulated the 
activity of Virginia Indians. In 1924, Virginia passed the Racial 
Integrity Law, and the Virginia Bureau of Vital Statistics went so far 
as to eliminate an individual's identity as a Native American on many 
birth, death and marriage certificates. The elimination of racial 
identity records had a harmful impact on Virginia's tribes, when they 
began seeking Federal recognition.
    Second, Virginia tribes signed a treaty with England, predating the 
practices of most tribes that signed a treaty with the Federal 
Government.
    For these reasons, I strongly believe that recognition for these 
six Virginia tribes is justified based on principles of dignity and 
fairness. As I mentioned, I have spent several months examining this 
issue in great detail, including the rich history and culture of 
Virginia's tribes. My staff and I asked a number of tough questions, 
and great care and deliberation were put into arriving at this 
conclusion. After meeting with leaders of Virginia's Indian tribes and 
months of thorough investigation of the facts, I concluded that 
legislative action is needed for recognition of Virginia's tribes. 
Congressional hearings and reports over the last several Congresses 
demonstrate the ancestry and status of these tribes.
    On May 2007, the House overwhelming passed the Thomasina E. Jordan 
Indian Tribes of Virginia Federal Recognition Act, with bipartisan 
support. This bill has advanced further this year than it has in the 
past several Congresses with the strong support and tireless efforts of 
Congressman Jim Moran. Virginia Governor Tim Kaine and the Virginia 
legislature support federal recognition for these tribes. I look 
forward to working with my colleagues in the Senate, especially those 
on the Indian Affairs Committee, to push for passage of this important 
bill. Congress has exercised its power to recognize tribes in the past 
and I ask you to use this power to grant federal recognition to these 
six Virginia tribes.
    Last year, we celebrated the 400th Anniversary of Jamestown--
America's first colony. After 400 years since the founding of 
Jamestown, these six tribes deserve to join our nation's other 562 
federally-recognized tribes.
    Thank you Mr. Chairman and members of this Committee. I 
respectfully request that this Committee pass this bill as soon as 
possible.

    The Chairman. Senator Webb, thank you very much.
    Finally, we will hear from Congressman Moran.

               STATEMENT OF HON. JAMES P. MORAN, 
               U.S. REPRESENTATIVE FROM VIRGINIA

    Mr. Moran. Thank you very much, Senator. I really 
appreciate my two friends, Governor Kaine and Senator Webb, 
testifying on this.
    I also greatly respect your position, Mr. Chairman, that 
the legislative process is not the ideal way to determine the 
legitimacy of Native American Tribes, but our point is there 
really is a uniqueness here with these Virginia tribes. First 
of all, most Native American Tribes gained their recognition 
when they signed an agreement with the United States 
Government.
    When they signed these peace treaties, that established 
their legitimacy. These tribes signed their peace treaties with 
the King of England; the principal one was in 1667 with Charles 
II. It has been recognized for 332 years both in Virginia and 
in England. So there is a uniqueness because they date all the 
way back, as both the Governor and Senator have said, to when 
the English settlers arrived on the shores of Virginia.
    We were hoping we could get this done by the 400th 
anniversary of Jamestown. We missed it, but we can't give up on 
it. But the second reason goes to a very shameful part of 
Virginia's history. There was a paper genocide that occurred. 
The officials in Virginia deliberately expunged the records, 
they destroyed the official records and most of the private 
records. I have a statement that gets into the whole thing, 
but, basically, a lot of Virginia's ruling elite claim to be 
blood descendants of Pocahontas, and in their view that meant 
that no one else in Virginia could make a claim that they were 
Native American or a descendant of Pocahontas because to do so 
would mean that Virginia's ruling elite would have to be 
classified as all other non-whites were, which was--and this 
was the law--the inferior Negroid race.'' This was what it was 
about.
    And with enormous hypocrisy, Virginia's ruling elite pushed 
policies, got them passed, and it culminated with the Racial 
Integrity Act of 1924, and in Orwellian fashion they destroyed 
the State and local courthouse records, and that really has 
meant that it has been almost impossible for these tribes to 
establish their legitimacy because the courthouse records just 
aren't there anymore.
    I think any of the tribes would be hard-pressed to show 
that they have endured the same kind of thing that has happened 
to these Native American Tribes. It wasn't until 1967 that that 
law was taken off the book. Granted, this is Virginia's 
problem. I think it is pretty clear Virginia has come a long 
way, and we may even go even further in November----
    [Laughter.]
    Mr. Moran. --but this is something we have got to rectify. 
We have got to rectify this, Mr. Chairman. It really is unique. 
These tribes are so deserving; they are good people. We have 
even got language in the bill that says that they can't gamble. 
I mean, this is such tight language, I can't believe that they 
have accepted it, but that is the reality. This is about their 
pride and about their heritage and what they leave as a legacy 
to their children and grandchildren.
    So that is why we are here and we really hope that we can 
get this bill into law. Thank you.
    [The prepared statement of Mr. Moran follows:]

  Prepared Statement of Hon. James P. Moran, U.S. Representative from 
                                Virginia
    Good afternoon and thank you, Mr. Chairman and Members of the 
Committee.
    I appreciate your willingness to hold this hearing and to provide 
me and my colleagues from Virginia with an opportunity to testify. My 
message is straightforward and simple: Congress must grant Virginia's 
historic tribes federal recognition. It can and it should do so. It has 
the authority, and there is precedent. Doing so will also help right a 
wrong, a grave injustice, that has been perpetrated for centuries.
    Last year marked the 400th anniversary of the first permanent 
English settlement in the New World at Jamestown. The forefathers of 
the tribal leaders who are in this room today were the first to welcome 
the English, and during the first few years of settlement, ensured 
their survival. As was the case for most Native American tribes, as the 
settlement prospered and grew, the tribes suffered. Those who resisted 
quickly became subdued, were pushed off their historic lands, and, up 
through much of the 20th Century, were denied full rights as U.S. 
citizens.
    Despite their devastating loss of land and population, the Virginia 
Indians survived, preserving their heritage and their identity. Their 
story of survival doesn't span just one century, it spans four 
centuries of racial hostility and coercive state and state-sanctioned 
actions.
    The Virginia tribes' history, however, diverges from that of most 
Native Americans in two unique ways. The first explains why the 
Virginia tribes were never recognized by the Federal Government; the 
second explains why congressional action is needed today.
    First, unlike most tribes that resisted encroachment and obtained 
federal recognition when they signed peace treaties with the Federal 
Government, Virginia's tribes signed their peace treaties with the 
Kings of England. Most notable among these was the Treaty of 1677 with 
Charles II. This Thanksgiving, the Virginia tribes will fulfill their 
commitment to that treaty, as they have every year for the past 332 
years, by providing Virginia Governor Tim Kaine with game and produce 
as tribute in a ceremony at the State Capitol. This may be the longest 
celebrated treaty in the United States.
    In the intervening years between 1677 and the birth of this nation, 
however, these six tribes were dispossessed of most of their land. They 
were never in a position to negotiate with and receive recognition from 
our nascent federal government. Two years ago, the English government 
reaffirmed its recognition of the Virginia tribes hosting them at 
ceremonies in England. Sadly, as we concluded the 400th anniversary of 
Jamestown, these same Virginia tribes remain unrecognized by our 
Federal Government. This is a travesty this Committee can correct.
    The second unique circumstance for the Virginia tribes is what they 
experienced at the hands of the state government during the first half 
of the 20th Century. It has been called a ``paper genocide.'' At a time 
when the Federal Government granted Native Americans the right to vote, 
Virginia's elected officials adopted racially hostile laws targeted at 
those classes of people who did not fit into the dominant white 
society. The fact that some of Virginia's ruling elite claimed to be 
blood descendants of Pocahontas in their view meant that no one else in 
Virginia could make a claim they were Native American and a descendent 
of Pocahontas' people. To do so would mean that Virginia's ruling elite 
were what they decreed all non-whites to be: part of ``the inferior 
Negroid race.''
    With great hypocrisy, Virginia's ruling elite pushed policies that 
culminated with the enactment of the Racial Integrity Act of 1924. This 
act directed state officials, and zealots like Walter Plecker, to 
destroy state and local courthouse records and reclassify in Orwellian 
fashion all non-whites as ``colored.'' It targeted Native Americans 
with a vengeance, denying Native Americans in Virginia their identity.
    To call yourself a ``Native American'' in Virginia was to risk a 
jail sentence of up to one year. In defiance of the law, members of 
Virginia's tribes traveled out of state to obtain marriage licenses or 
to serve their country in wartime. The law remained in effect until it 
was struck down in federal court in 1967. In that intervening period 
between 1924 and 1967, state officials waged a war to destroy all 
public and many private records that affirmed the existence of Native 
Americans in Virginia. Historians have affirmed that no other state 
compares to Virginia's efforts to eradicate its citizens' Indian 
identity.
    All of Virginia's state-recognized tribes have filed petitions with 
the Bureau of Acknowledgment seeking federal recognition. But it is a 
very heavy burden the Virginia tribes will have to overcome, and one 
fraught with complications that officials from the bureau have 
acknowledged may never be resolved in their lifetime. The 
acknowledgment process is already expensive, subject to unreasonable 
delays, and lacking in dignity. Virginia's paper genocide only further 
complicates these tribes' quest for federal recognition, making it 
difficult to furnish corroborating state and official documents and 
aggravating the injustice already visited upon them.
    It wasn't until 1997, when Governor George Allen signed legislation 
directing state agencies to correct state records, that the tribes were 
given the opportunity to correct official state documents that had 
deliberately been altered to list them as ``colored.'' The law allows 
living members of the tribes to correct their records, but the law 
cannot correct the damage done to past generations or to recover 
documents that were purposely destroyed during the ``Plecker era.''
    In 1999, the Virginia General Assembly adopted a resolution calling 
upon Congress to enact legislation recognizing the Virginia tribes. I 
am pleased to have honored that request, and beginning in 2000 and in 
subsequent sessions, Virginia's Senators and I have introduced 
legislation to recognize the Virginia tribes.
    There is no doubt that the Chickahominy, the Eastern Chickahominy, 
the Monacan, the Nansemond, the Rappahannock and the Upper Mattaponi 
tribes exist. These tribes have existed on a continuous basis since 
before the first European settlers stepped foot in America. They are 
here with us today. Helen Rountree, who will testify today, has spent 
her career verifying their history and their existence. Her 
publications are well known and well regarded. Her expertise on 
Virginia tribes cannot be matched at the Bureau of Indian Affairs.
    I know there is resistance in Congress to grant any Native American 
tribe federal recognition. And I can appreciate how the issue of 
gambling and its economic and moral dimensions has influenced many 
Members' perspectives on tribal recognition issues. The six Virginia 
tribes are not seeking federal legislation so that they engage in 
gaming. They find this assertion offensive to their moral beliefs. They 
are seeking federal recognition because it is an urgent matter of 
justice and because elder members of their tribes, who were denied a 
public education and the economic opportunities available to most 
Americans, are suffering and should be entitled to the federal health 
and housing assistance available to federally recognized tribes.
    To underscore this point, the legislation I introduced, as approved 
by the House, includes restrictive language that would prevent the 
tribes from engaging in gaming on their federal land even if everyone 
else in Virginia were allowed to engage in Class III casino-type 
gaming. I remain puzzled that objections are still being raised that 
these tribes could somehow engage in gaming given the restrictive 
language that is now a part of this bill. Nevertheless, I remain 
willing and ready to work with you and my fellow Senate colleagues to 
find the right equation that is respectful of tribal sovereignty and 
rights and meets Members' concerns about this issue.
    The Senate Indian Affairs Committee, when it was chaired by Senator 
Ben Nighthorse Campbell in 2004, reported out a Virginia tribal 
recognition bill. At a hearing before this committee in 2006, Senator 
John McCain said that these tribes deserve recognition. Mr. Chairman, 
the Virginia tribes have waited too long, have come too far, to see 
their recognition bill die with the 110th Session of Congress. I also 
note that legislation to grant federal recognition to the North 
Carolina Lumbee tribe has been approved by this Committee.
    In the name of justice, I urge you to move this bill through 
Committee. And if we must adjourn before action on it is complete, I 
ask that you to make it your first priority in the next Congress.
    Thank you.

    The Chairman. Congressman Moran, thank you very much.
    I want to make a very brief comment before we excuse our 
witnesses. Senator Webb has been aggressively irritating on 
this subject for a long while,----
    Senator Webb. Thank you.
    [Laughter.]
    The Chairman. --as you know, on behalf of the interests and 
passion he has. He has been pushing and pushing very, very 
hard.
    I know that some have raised a question why are we holding 
a hearing this close to the end of the legislative session, and 
I want to explain to you why we are doing this. We have spent 
an enormous amount of time this year to get Indian health care 
out of the United States Senate, the first time in 17 years. We 
did that. It was very hard; it took a lot of the Committee's 
time. The Indian housing bill went through this Committee and 
the United States Senate. Also, we have spent much of the year 
working on a new groundbreaking piece of legislation on Indian 
law enforcement.
    So we have not done all we would like to do in other areas, 
and I scheduled this hearing, with the cooperation of Senator 
Murkowski, even though we are near the end of the session, so 
that, hopefully, in the first quarter when we get back next 
year, this Committee will take action and make decisions.
    It is not a secret that I would prefer that the recognition 
process at Interior be a workable process. I recognize, 
however, that it is a process that is broken, and I believe it 
is appropriate for this Committee to make decisions case-by-
case in matters where equity would require the Committee to 
proceed. We have had congressional recognition in the past for 
some. You make a very persuasive and strong case. I know how 
strongly you feel about this. Senator Warner has asked that a 
statement that he has submitted be included for the record, 
which we will do by consent.
    But I want to thank you and thank members of your tribes 
and others who will testify today. Our purpose today is to 
continue and hopefully finalize the hearing records, and when 
we come back in a very few short months, begin to make the 
decisions that I want the Committee--and I know Senator 
Murkowski and Senator Tester feel as I do--to make. So let me 
thank you very much for your courtesy to come here today. Thank 
you.
    I want to call to the dais: Helen Rountree, Ron Yob, Ann 
Tucker, and John Sinclair. If they would come up to the witness 
table.
    Let me thank all of you for being here.
    Senator Murkowski, I did not give a full opening statement. 
Let me make a comment and just a couple of words, and if you 
wish to make a comment.
    I indicated that the acknowledgment process at the Federal 
level is largely broken. We have hearings on it. I do think 
that we have tribal leaders who come to Washington, D.C. 
frustrated and exhausted after decades of work, believing that 
they have made progress and, yet, receiving no answer.
    My preference is always to use the process that exists at 
Interior. I recognize that that is not always possible. I 
recognize the process itself is broken. So even as we are 
working with the Department of Interior, we are holding these 
hearings with several tribes that have come to us whose 
circumstances are different and unusual so we can consider 
action in the first quarter of next year.
    I just wanted to make that point.
    Senator Murkowski?

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Well, Mr. Chairman, just to follow up, I 
think we do recognize that the process is too slow, it is too 
cumbersome to recognize that you would have three decades, 
perhaps more, working to seek recognition. It is full-time 
employment for the lawyers, but not really a resolution to 
those that are seeking the redress, and we must find a better 
way to provide for this.
    We do recognize there has been a push in this direction 
with the Department of Interior publishing the additional 
guidance and directions, but we continue to hear that even with 
a recognition process that is more streamlined, perhaps more 
efficient, in an effort to improve the time line experiences, 
we still continue to hear from so many that the current 
administrative recognition process is insufficient, and we 
recognize this. We appreciate that it is excessively drawn out; 
it does have uneven application of the regulatory criteria.
    So, as the Chairman has noted, when it is not working 
within the agency, sometimes there must be a redress through 
the legislative process, and that is why we have those of you 
assembled before us here today. I know that this has been the 
second visit for some of you. We appreciate that. Again, we do 
want to do what we can from the legislative process to help 
advance, and having this hearing today puts clearly on the 
record the situation that so many of you have been in the midst 
of for so long. So I appreciate your time and your very 
diligent efforts and your willingness to come before the 
Committee this afternoon.
    Thank you, Mr. Chairman.
    The Chairman. Senator Murkowski, thank you very much.
    Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Yes, thank you, Mr. Chairman. You know, I 
guess we have been here before, and you folks have been here 
many, many times before. The Department of Interior isn't doing 
their job on this particular issue, it is quite obvious to me. 
You know, we have been through five Administrations, going on 
six, and, quite honestly, I have said this many times, they 
need to make a decision and tell you yes or no, instead of just 
demanding paperwork.
    I remember the last time you were here, John Sinclair, and 
you talked about the mountains of paperwork and the mountains 
of paperwork, and how this has become a generational thing now. 
Your father did this, probably your grandfather before him. But 
the truth is that the system is broken badly, and I don't know 
if it is because people in the agency aren't committed to make 
it work or if we have to develop something new, but it is not 
working. I agree with the Chairman that an act of Congress is 
not the way to get this job done, although, if we have to, we 
will. So we will go forward.
    I have a meeting I have to run to, but I really want to 
thank John Sinclair, the Chairman of the Little Shell Tribe in 
Montana, for his efforts and his commitment to this cause and 
his people, and appreciate your being here today and appreciate 
all you have gone through, because, quite frankly, I know it 
hasn't been easy for you. This bill that we are going to hear 
about today is sponsored by myself and Senator Baucus and 
Representative Rehberg, so we are all on the same sheet in 
Montana over this. It was in the State legislature when they 
passed resolution after resolution, encouraging the Federal 
Government to give the Little Shell recognition.
    So, with that, thank you, Mr. Chairman.
    The Chairman. Senator Tester, thank you very much.
    Let me call on John Sinclair, who is President of the 
Little Shell Tribe of Chippewa Indians of Montana. President 
Sinclair, welcome. You may proceed.
    And let me just say for all four of you that your entire 
statements will be made a part of the permanent record. You may 
summarize.

STATEMENT OF HON. JOHN SINCLAIR, PRESIDENT, LITTLE SHELL TRIBE 
                 OF CHIPPEWA INDIANS OF MONTANA

    Mr. Sinclair. Thank you. Good afternoon, Chairman Dorgan 
and members of the Committee. On behalf of myself and the 
Little Shell Tribe of Montana, I extend a special greeting and 
heartfelt thanks to Senator Tester for his continued friendship 
and support of the Little Shell Tribe. I am accompanied by a 
tribal attorney in the Federal recognition process, Kim 
Godschalk. To the Committee, I express the Tribe's and my own 
appreciation for the opportunity to tell our story, a story 
that shows that justice and good policy behind Senator Tester's 
bill to recognize Little Shell Tribe, S. 724.
    In 1892, our leader, Chief Little Shell, rejected the terms 
of a Federal agreement that settled many Chippewas on 
reservations. Our people, who had fallen the buffalo herds into 
Montana, were left with no reservation and no means of 
subsistence, as the buffalo herds had largely died out. Because 
our ancestors had no reservation home and were so poor, they 
became known as the trash can Indiana or the landless Indians 
of Montana.
    In 1908, Congress first appropriate funds to acquire land 
for the landless Indians of Montana, which included our 
ancestors. Congress appropriated money for this purpose several 
more times. After the Indian Reorganization Act was passed in 
1934, the Department of Interior also promised a reservation 
home for the Little Shell people. But money was too short and 
our people never got the homeland they so often promised to us. 
So the tribe never received the service and benefits our people 
so badly need, service and benefits that our brothers, who 
accepted reservation life according to the terms of the 1892 
agreement, have long enjoyed.
    Because we were landless, we were viewed as unrecognized 
when the Department of Interior set up their federally 
acknowledgment process in 1978. We hoped, however, that this 
process would be the answer, but we were wrong. We have been in 
this process now for 30 years, and there is no certain end in 
sight. We have been caught in a bureaucratic twilight zone.
    Let me just give you a few dates to give you a flavor of 
what the Little Shell Tribe has been through with this process.
    In 1978, the Tribe first notified the BIA of our intent to 
petition for acknowledgment and spent the next 14 years 
collecting documents, doing genealogies, participating in 
technical assistance meetings with the BIA, and responding to 
numerous requests for yet more documents.
    In 1995, the BIA finally declared the Tribe's petition was 
ready for active consideration.
    In 1997, the BIA began active consideration of the Tribe's 
petition for recognition.
    In 2000, the BIA issued its proposed finding on the Tribe's 
petition for recognition.
    In 2005, the BIA told the Tribe to expect the last stage, 
the final determination on the Tribe's petition, in February of 
2007. This was extended to the end of 2008 and recently 
extended again until January 28, 2009.
    So 30 years after the Tribe began this process we are still 
waiting for the BIA to complete the process, and we have no 
faith that this most recent extension will be the last one. But 
it gets worse.
    In 2000, the BIA issued a favorable proposed finding on the 
Tribe's petition. In other words, the BIA concluded in 2000 
that the Tribe had met all the criteria for recognition under 
the regulations, and yet the Bureau asked for more documents, 
which we provided, and still we wait. In the meantime, we have 
lost a whole generation of Little Shell people, including 
recently my own father, who fought for recognition as President 
of the Tribe, just as I do now.
    Mr. Chairman, this is why the Little Shell Tribe needs 
Congress to step in. End the process and enact special 
legislation to recognize the Little Shell Tribe. Enactment of 
S. 724 is good, responsible Indian policy. After all, the BIA 
itself has said that the Little Shell Tribe meets the criteria 
for recognition, and it said so nearly eight years ago now. 
Justice to the Little Shell people requires the enactment of S. 
724. We have endured all these generations without the Federal 
status, reservation, and service that our Indian brothers in 
Montana have long enjoyed. It is time the Little Shell people 
received the same Federal status.
    I would like to end on this point. Every government in 
Montana knows the Little Shell people and agrees that justice 
requires recognition of the Tribe. The State of Montana and all 
local governments support S. 724, and all recognized tribal 
governments in the State support recognition of the Little 
Shell Tribe. Congress deals every day with difficult issues. 
This is not one of them. On behalf of the Little Shell people, 
I implore the Committee to move Senator Tester's bill forward. 
Thank you.
    [The prepared statement of Mr. Sinclair follows:]

Prepared Statement of Hon. John Sinclair, President, Little Shell Tribe 
                     of Chippewa Indians of Montana
    Chairman Dorgan, Vice Chairman Murkowski, our good friend Senator 
Jon Tester, and honorable members of the Senate Committee on Indian 
Affairs, I thank you for the opportunity to testify in support of S. 
724, a bill that would confirm the federal relationship between the 
Little Shell Tribe of Chippewa Indians of Montana and the United 
States, and address related issues.
    My name is John Sinclair and I have the honor of serving as 
President of the Little Shell Tribe. I follow in the footsteps of my 
father and grandfather in that honor and appear before you today in the 
same work at which they labored--the long effort to confirm federal 
recognition of the Little Shell Tribe. S. 724, introduced by our 
tireless champion Senator Tester, would accomplish this long sought 
goal for the Tribe. I urge the committee to act favorably on S. 724. 
The bill is consistent with Congress' and the Department of the 
Interior's historical commitments to acknowledge our people and 
establish a land base for them. This bill is necessary since our 
experience with the acknowledgment process administered by the Office 
of Federal Acknowledgment, Bureau of Indian Affairs, shows that the 
Department either cannot or will not bring that process to conclusion. 
And the terms of S. 724 show it to be a reasonable approach that would 
address, and thereby expedite, issues related to confirmation of the 
Tribe's federal status.
The History of the Little Shell Tribe
    The Little Shell Tribe of Chippewa Indians is the successor in 
interest to the Pembina Band of Chippewa Indians in North Dakota. We 
were buffalo hunters who lived and hunted around the Red River and the 
Turtle Mountains in North Dakota in the early 1800s. The Pembina Band 
was recognized by the United States in an 1863 treaty that was ratified 
by the Senate. See Treaty of October 2, 1863, 13 Stat. 667. After the 
treaty, some members of the Pembina Band settled on reservations in 
Minnesota but our ancestors followed the buffalo herds into western 
North Dakota and Montana, eventually settling in Montana and in the 
Turtle Mountains of North Dakota.
    In 1892, the United States authorized the creation of a commission 
to negotiate for a cession of land from the Turtle Mountain Chippewa 
and provide for their removal. Chief Little Shell and his followers 
walked out on the negotiations and refused to accept the terms of the 
eventual agreement. Some of Little Shell's followers moved to Montana 
and joined with other members of the Pembina Band who had settled in 
Montana; our collective Pembina ancestors came to be known as the 
``Little Shell Band.'' When our traditional means of livelihood died 
with the buffalo herds, our ancestors were left to eke out an existence 
in a number of shantytowns across Montana. We became known as ``the 
trash-can Indian,'' or ``the landless Indians.'' Forced to live in 
communities which did not welcome us, our people faced severe racism 
and discrimination throughout Montana, some of which continues today.
    For one hundred years now, Congress has known of and attempted to 
address the plight of the Little Shell people. In 1908, Congress first 
appropriated funds to settle our people on a land base. 35 Stat. 84. 
Congress appropriated funds again in 1914 and, again, every year 
thereafter until 1925--all to provide a reservation land base on which 
to settle the ``homeless Indians in the State of Montana.'' The 
acquisition was never made and the Tribe never recognized.
    In the 1920s, newspaper articles chronicled the plight of our 
people. Our leaders pleaded for help for the destitute Little Shell 
people. Tribal leader Joseph Dussome asked Congress, ``Are we not 
entitled to a Reservation and allotments of land in our own County, 
just the same as other Indians are? '' Two weeks later, the Department 
of the Interior rejected our leader's plea:

        The Indians referred to are Chippewas of the Turtle Mountain 
        Band. They were under the leadership of Little Shell who became 
        dissatisfied with the treaties of the United States and the 
        Turtle Mountain Band of Chippewas. He accordingly refused to 
        accede thereto . . . The disaffected band, by its failure to 
        accede to the terms of the treaty and remove to the reservation 
        is now unable to obtain any rights thereon for the reason that 
        the lands of this band are all disposed of, and the rolls 
        became final[.] . . . There is now no law which will authorize 
        the enrollment of any of those people with the Turtle Mountain 
        band for the purposes of permitting them to obtain either land 
        or money.

    Letter of Asst. Secretary Scattergood, dated December 14, 1931. 
Three years later, however, Congress enacted the Indian Reorganization 
Act [IRA], which provided a mechanism for groups of Indians like ours 
to organize and apply for land. In December 1935, the Commissioner of 
Indian Affairs took steps to organize our people under the IRA. The 
Commissioner proposed a form to enroll our people, stating:

        It is very important that the enrollment of homeless Indians in 
        the State of Montana be instituted immediately, and it is 
        proposed to use this form in the determination of Indians who 
        are entitled to the benefits of the Indian Reorganization Act.

    BIA Letter, December 23, 1935. This effort resulted in the Roe 
Cloud Roll, named after Dr. Henry Roe Cloud, an Interior official who 
played a large part in the project. Once the roll was complete, the 
Field Administrator clearly stated that the purpose of the roll was to 
settle our people and bring them under federal jurisdiction:

        The landless Indians whom we are proposing to enroll and settle 
        on newly purchased land belong to this same stock, and their 
        history in recent years is but a continuation of the history of 
        wandering and starvation which formerly the Rocky Boy's band 
        had endured.

        Out of the land purchase funds authorized by the Indian 
        Reorganization Act, we are now purchasing about 34,000 acres 
        for the settlement of these Indians and also to provide 
        irrigated hay land for the Indians now enrolled on Rocky Boy's 
        Reservation. The new land, if devoted wholly to that purpose, 
        would take care of only a fraction of the homeless Indians, but 
        it is our intention to continue this program through the years 
        until something like adequate subsistence is provided for those 
        who cannot provide for themselves. The first step in the 
        programs is to recognize those Indians of the group who may 
        rightfully make claim of being one-half degree, which is the 
        occasion for presenting the attached applications. The fact of 
        these people being Indian and being entitled to the benefits 
        intended by Congress has not been questioned.

    Roe Cloud Roll applications, 1937. The Department of the Interior 
never fulfilled this promise. The limited resources available to 
acquire land were expended for tribes already recognized. In 1940, 
Senator James Murray requested Interior to fulfill its promise of land 
for the Little Shell Band. Assistant Commissioner Zimmerman responded 
that his office was ``keenly aware of the pressing need of the landless 
Chippewa Cree Indians of Montana. The problem thus far has been dealt 
with only in a very small way. I sincerely hope that additional funds 
will be provided for future purchases in order that the larger problem 
remaining can be dealt with in a more adequate manner.'' Unfortunately, 
the Federal Government's efforts to assist the Little Shell Tribe gave 
way during the termination era of the 1950s to the termination policy, 
and, as a result, the land promised for our people was never 
forthcoming.
Recent Experience With the Office of Federal Acknowledgment [OFA]
    When the Department of the Interior adopted regulations 
establishing an administrative process to acknowledge Indian tribes in 
1978, once again the Little Shell people had hope. We hoped that the 
Department's process would finally bring to conclusion the Tribe's long 
effort to achieve federal recognition. The administrative process has 
turned out to be just another cruel hoax on the Little Shell people. We 
began work on through this new process in 1978 and, thirty years later, 
it still has not been completed.
    For years after its initial submission, the Tribe researched its 
history and community to establish the seven mandatory criteria under 
the regulations. We had numerous technical assistance meetings with the 
staff and responded to requests for additional information. Finally, 
nearly twenty years later in 1995, the Bureau of Indian Affairs 
declared that the Tribe's petition was ready for active consideration.
    However, a ``ready for active consideration'' designation does not 
mean that the OFA will commence its review; it only means that you get 
into line. Active consideration begins only when the Bureau of Indian 
Affairs has time to commence active consideration. In our case, that 
was 1997, two years after the petition was declared ready for active. 
At that point, we hoped that we were at least on the road toward 
completion of the process. Once again, we were wrong.
    On July 24, 2000, the Bureau of Indian Affairs finally issued the 
proposed finding on the Tribe's petition. The proposed finding found 
that the Tribe had met all the seven mandatory criteria and should be 
recognized--but this was not the end of the process. It merely 
triggered the next step--which is public comment on the proposed 
finding and review by the Bureau of Indian Affairs of those public 
comments as part of its final determination.
    The Tribe takes very little comfort in the favorable proposed 
finding. Although the Department found that the Tribe met all the 
mandatory criteria, the Department ``encouraged'' the Tribe to submit 
more documentation. No significant evidence was submitted in opposition 
to the favorable proposed finding. Unlike many other cases, neither the 
State of Montana nor any local government submitted adverse comments on 
the proposed favorable finding for the Little Shell Tribe. But the 
Department made clear that it preferred that the Tribe submit 
additional records for certain time periods before the 1930s. We took 
the Department's suggestion to heart, submitting approximately 1,000 
pages of additional reports and appendices supported by several boxes 
of documentation.
    We are still waiting for the Department's final determination on 
the Tribe's petition. The Director of OFA advised a federal court in 
June 2005 that OFA expected to issue its Final Determination on Little 
Shell in February 2007. See 8th Declaration of Lee Fleming, Mashpee 
Wampanoag Tribal Council v. Norton, Case No.1:01CV00111 (D.D.C.) This 
did not happen. Then, OFA advised the Tribe in writing to expect the 
commencement of active consideration on the final determination on 
August 1, 2007. This did not happen, either. Instead, OFA granted 
itself extensions, advising the Tribe to expect active consideration on 
the final determination to begin by August 1, 2008, with a final 
determination to be issued by the end of 2008. Once more, this did not 
happen. On July 24, 2008, the Tribe received another letter from OFA, 
granting itself yet one more extension. Now, we are told to expect a 
final determination by January 28, 2009. Of course, nothing prevents 
the OFA from granting itself another extension, so the Tribe has no 
confidence that this new deadline is any more firm than the earlier 
deadlines.
    Over the past 30 years, the Tribe has been fortunate to have the 
services of the Native American Rights Fund on its petition. Without 
NARF's assistance, it would have been impossible for the Tribe to 
participate in this protracted and expensive administrative process. 
NARF has spent over 3,400 attorney hours over the last fifteen years on 
our petition. Consultants and graduate students put in thousands and 
thousands of additional hours. Tribal consultants, such as historians, 
genealogists and graduate students, donated substantial amounts of time 
pro bono or worked at substantially reduced rates in compiling large 
portions of the petition. Even with this generosity, the total cost for 
consultants and associated expenses over the last fifteen years exceeds 
$1 million dollars.
    The lengthy process also imposes an immeasurable human cost, with 
the recognition battle passing from one generation to the next. The 
demands of providing for my people without the protection of federal 
recognition, a protection that has been promised for one hundred years, 
has been daunting, to say the least. And it is just heartbreaking to 
think that, after all we've been through with this administrative 
process, the Department could at the end of day even decide not to 
confer federal acknowledgment, to reverse its own favorable proposed 
finding.
    Enough is enough. It's time for Congress to step in, to accept what 
the Department itself found in its proposed finding--that the Little 
Shell Tribe is entitled to federal recognition. It is unconscionable 
that nine years after it found that the Little Shell constitutes an 
Indian tribe, that in the face of no significant opposition to that 
proposed favorable finding, that the Little Shell Tribe is still 
waiting. One entire generation of Little Shell people has passed away, 
including my own father, as we wait for administrative action and we 
have no confidence that the new deadline will be met.
    The Constitution of the United States gives the Congress the 
privilege and right to recognize tribal governments. The Congress has 
considered the needs of the Little Shell people time and time again. 
Congress should not wait any longer, and should not force the Little 
Shell people to wait any longer, for the completion of a seemingly 
never ending administrative process. It's time for Congress itself to 
issue the final determination on the status of the Little Shell Tribe 
and enact S. 724.
The Reasonable and Necessary Terms of S. 724
    First and foremost, S. 724 takes the final step that has been 
interminably delayed by the Bureau of Indian Affairs--even though it 
has essentially acknowledged that the Little Tribe is real and should 
be recognized--and that is the confirmation of federal recognition for 
the Tribe. This has been promised to the Tribe, both by Congress and 
the Department of the Interior. There is no rational reason for further 
delay. Since the Department does not seem capable of bringing its 
deliberations to an end, the Congress should do so by recognizing the 
Little Shell Tribe through legislation.
    I must underscore that the State of Montana, affected local 
governments, and all recognized tribes in the State of Montana support 
the bill to recognize the Little Shell Tribe. The circumstances here 
truly are unique. The Department of the Interior has already issued a 
proposed favorable finding on the Tribe's petition and there is no 
government opposition to recognition of the Tribe. In this case, the 
enactment of federal recognition legislation only makes sense.
    In addition, S. 724 does more than simply confirm federal 
recognition. It addresses many of the issues newly recognized tribes 
and local communities struggle with for decades after formal federal 
recognition--the establishment of a land base and a tribal service 
area. It is well documented that it takes years and sometimes more than 
a decade for the Department of the Interior to take land into trust for 
newly recognized tribes. For example, it took eight years after the 
Jena Band of Choctaw Tribe was recognized before Interior took that 
Tribe's cemetery and governmental offices into trust. Further, many 
tribes suffer from the years it takes for the Department to establish a 
service area for the newly recognized tribe. For example, after 
completion of administrative challenges to the Department's final 
determination acknowledging the Cowlitz Indian Tribe in 2002, the 
Cowlitz Tribe still does not have a BIA service area. Thus, even if the 
Department of the Interior does issue its final determination next year 
(which is doubtful given the Tribe's experience with OFA), the Tribe 
could be forced to endure many additional years in legal limbo as it 
struggles to establish and land base and service area.
    S. 724 addresses these issues. It defines a service area for the 
Tribe consisting of four counties where our people live. It also 
directs the Secretary to acquire trust title to 200 acres located 
within the service area to be used as a tribal land base. With these 
terms, the Little Shell people are put much closer to the actual 
delivery of federal Indian trust services and benefits.
    Can any reasonable person believe that the Little Shell people 
haven't waited long enough? The enactment of S. 724 would finally end 
the uncertainty regarding the status of the Little Shell people. The 
enactment of S. 724 would finally provide for the establishment of a 
land base for the Little Shell people, something the Department of the 
Interior promised one hundred years ago. And the enactment of S. 724 
would provide certainty for the local governments that support 
recognition of the Little Shell Tribe, by defining the Tribe's service 
area and the location of a land base.
Conclusion
    As our history shows, the Little Shell people are persistent and 
patient. But I have difficulty in explaining to my people why we still 
remain unrecognized, even though the Department of the Interior issued 
a favorable proposed finding on the Tribe's petition in 2000. We have 
waited on the Department for one hundred years. Now it's time for 
Congress to act. The Little Shell people implore this Committee to act 
favorably on S. 724 and allow the bill to move forward.
Additional Testimony
    It was a pleasure to testify before the Committee on S. 724, a bill 
to reestablish the government to government relationship between the 
United States and the Little Shell Chippewa Tribe of Montana. At that 
hearing, Mr. Lee Fleming of the Office of Federal Acknowledgment made 
statements regarding the Little Shell Tribe that are of concern to the 
Tribe and which therefore require a response. Towards that end, I 
respectfully request that this supplemental statement of the Little 
Shell Tribe be included in the hearing record. There are three issues I 
wish to address.
1. OFA's Alleged ``Warning'' in the Favorable Proposed Finding
    Mr. Fleming testified that the Little Shell Tribe had been 
``warned'' in OFA's favorable proposed finding that there were gaps in 
the Tribe's documentation, gaps that had to be filled or the Tribe 
would run the risk that OFA's favorable finding could turn into a 
negative final determination. As OFA stated in the Notice of Proposed 
Finding on the Little Shell petition, ``This proposed finding is based 
on the available evidence and does not preclude the submission of other 
evidence to the contrary. Such new evidence may result in a change in 
the conclusions reached in the proposed finding.'' 65 F. Reg. 45394, 
45396 (July 21, 2000). In other words, because no new evidence was 
submitted that would support a contrary finding, there is no basis in 
the record for turning the favorable proposed finding into a negative 
final determination.
    In fact, Mr. Fleming's suggestion that Little Shell had been 
``warned'' in the favorable proposed finding is contradicted by the 
finding itself. On criterion (a), OFA's proposed finding specifically 
states that contrary new evidence would be required to reverse the 
favorable proposed finding:

        This proposed finding also accepts as a reasonable likelihood 
        that references to the petitioner's individual ancestors as 
        Indians and references to portions of their ancestors as 
        residents of Indian settlements before the 1930's are 
        consistent with the identifications of these and other 
        ancestors of the petitioner as Indian groups after 1935. This 
        conclusion departs from prior decisions for meeting criterion 
        (a), which required evidence of a specific identification of 
        the petitioner as an Indian entity during each decade. The 
        Department believes that, absent strong proof to the contrary, 
        it is fair to infer a continuity of identification from the 
        evidence presented . . . (emphasis supplied)

    Summary under the Criteria for the Proposed Finding for Federal 
Acknowledgment of the Little Shell Tribe of Chippewa Indians of Montana 
(July 14, 2000) at page 6 (hereafter ``Summary'').
    It would be arbitrary and capricious for OFA now to apply a 
different standard to the Little Shell Tribe in order to reverse the 
favorable proposed finding in the absence of new, negative evidence.
    Finally, the Tribe did, in fact, submit substantial additional 
evidence in response to OFA's request for more documents in the 
favorable proposed finding. For example, additional work has 
demonstrated that the percentage of members tracing to a historical 
tribe is higher than thought in the proposed finding, i.e., is 94%, not 
62% We provided this additional information specifically to show that 
there was no ``departure'' from previous practice in the favorable 
proposed finding, not because we believed such a showing was necessary 
to avoid a reversal of the finding into a negative final determination. 
As OFA's proposed finding observed, certain departures from previous 
acknowledgment decisions for Little Shell were warranted, but 
additional evidence from the Tribe ``may create a different record and 
a more complete factual basis for the final determination, and thus 
eliminate or reduce the scope of these contemplated departures from 
precedence.'' 65 F. Reg. at 45395. Since no substantial negative 
evidence was submitted, and all governmental entities in the state 
support the recognition, our Tribe has expected that--someday when OFA 
ever finishes its work on our petition--the favorable proposed finding 
would become a favorable final determination. (But see concern 
expressed in section 2, infra.) Now, the very existence of the 
voluminous record of 67,000 pages, a record OFA convinced the Tribe it 
needed to generate, is used as an excuse by OFA for having missed its 
deadlines.
2. OFA's Failure to Share New Information with the Little Shell Tribe
    Mr. Fleming espoused his view that tribes should be required to go 
through the complete administrative process so that all the evidence 
relating to tribal existence can be ``scrutinized'' by all concerned. 
But in fact OFA's process does not allow this ``scrutiny'' of all 
evidence, even by the petitioner. For example, 25 CFR Sec. 83.10 (l)(1) 
provides that after the period for submitting materials has closed, the 
``Assistant Secretary may also conduct such additional research as is 
necessary to evaluate and supplement the record. . . . the additional 
materials will become part of the petition record.'' However, OFA makes 
no allowance in its regulations for a petitioner to access and respond 
to these materials prior to a final determination. In fact, OFA 
conducted weeks of field study in Montana after the closing date for 
submission of materials, conducting dozens of interviews and 
accumulating other materials as well. These materials have not been 
provided to the Little Shell Tribe despite the Tribe's request that 
they be shared.
    Indeed, the Tribe was forced to file a Freedom of Information Act 
request for the documents and OFA denied the Tribe's request for a 
waiver of the FOIA fees, which OFA estimated at approximately $4,500 
dollars. The Tribe appealed OFA's denial of the fee waiver request, but 
then the Tribe ultimately informed OFA that it would pay the under 
protest. OFA then informed us that the twenty working day time within 
which FOIA allows OFA to respond could not be met. When we asked OFA 
how long it would take to produce the new documents, our attorney was 
informed that the OFA attorneys who must review for privacy matters 
were all busy and that review of the responsive documents was not a 
high priority for them. Who knows when, if ever, we will get the 
material? And even if it is provided, there is no provision in the 
process for us to comment on them or to supplement the record if 
necessary before the final determination is made. The OFA process 
itself violates due process.
3. Extensions of Time
    In his testimony, Mr. Fleming tried to emphasize that the Tribe 
itself had asked for numerous extensions as an excuse for OFA missing 
its target dates for completing the final determination. Mr. Fleming's 
attempt to blame shift is based on a mixing of apples and oranges. He 
tries to compare the Tribe's ``understandable difficulty in completing 
research on a very large number of dispossessed Indians on the American 
frontier'' (Summary, supra, at page 6) with the Department's duty to 
analyze such information once it has been gathered in one place. The 
latter is a far more manageable task. It should be noted that 
unfortunately, the Tribe's chief researcher, Dr. Rob Franklin, passed 
away during this process. It fell to his wife, Dr. Pamela Bunte to pick 
up the work, juggle her teaching duties, and struggle with her own 
physical ailments in an effort finally to finish the process of 
submitting materials to OFA.
Conclusion
    In conclusion, there was nothing in Mr. Fleming's statement or 
response to questions at the hearing that explains either why OFA has 
been unable to meet its deadlines to issue a final determination for 
Little Shell or how that determination can be anything other than 
favorable.

    The Chairman. President Sinclair, thank you very much. We 
appreciate your being here and your testimony.
    The Honorable Ann Tucker will testify next, Chairwoman of 
the Muscogee Nation of Florida.
    Chairwoman Tucker, thank you very much for being here. You 
may proceed.

   STATEMENT OF HON. ANN DENSON TUCKER, CHAIRWOMAN, MUSCOGEE 
                       NATION OF FLORIDA

    Ms. Tucker. Chairman Dorgan, Honorable Committee Members, 
my name is Ann Denson Tucker. I am Chairwoman of the Muscogee 
Nation of Florida, the Florida Tribe of Eastern Creek Indians, 
and I welcome the opportunity to testify on Senate Bill 514 for 
the immediate Federal recognition of our tribe. I wish to thank 
Senator Nelson and Senator Martinez for their bipartisan 
sponsorship of this important legislation, and their staff 
members who have spent hours to ensure that this legislative 
request is the proper thing to do and the right way to do it.
    Thirty years of BIA process have inflicted financial 
hardship and injury on some of the poorest people in Northwest 
Florida, the Creek Indian people, and there is no end in sight. 
Because of the BIA's inability to act on this petition, the 
Muscogee Nation of Florida must rely on Congress.
    Muscogee Nation of Florida's center of government is in the 
Bruce Indian community of Walton County, Florida. Our ancestors 
signed 11 treaties with the United States Government between 
1790 and 1833. After President Andrew Jackson's Indian removal 
policies had decimated the Creek confederacy, our ancestors 
were faced with a brutal choice: remove from our homeland or 
find a way to survive. We found a way to survive.
    For the first half of the 19th century, we lived in Dale 
County, Alabama, in an Indian encampment near the 
Choctawhatchee River. By the Civil War, we were moving at night 
to avoid Indian removal and following the river south to Bruce 
Creek, where we still live today. We established our community, 
continued our traditions, fished, hunted, timbered, and farmed 
cooperatively. We did not have anthropologists traveling into 
the wilderness that was Northwest Florida to seek out Indians 
in a place where Jim Crow laws had made Indians illegal and the 
KKK reigned supreme to enforce this policy.
    In 1850 Florida, it was illegal to trade with Indians. In 
1851 Florida, it was illegal for Indians to hunt and to fish. 
In 1852 Florida, it was illegal under penalty of death for 
Indians to be Indians. We have spent 150 years on this 
homeland, the land of Timpoochee Canard, the land of the 
Euchees. We live separate, apart, with known community leaders, 
and they have addressed the needs of our community to the 
outside world at the local, State, and even Federal level. We 
had our own currency. We had our own teachers for our own 
school.
    Our council house was the geographic center of our town, 
the same building used for community meetings, political 
venues, community business, and community celebrations. It is 
still, today, our voting precinct. We have our own cemeteries 
and our own church with handwritten records that are 100 years 
old. We have a constitution, a baseline roll, and tribal codes 
that have been updated through the assistance of the 
Administration for Native Americans.
    We have our language preserved and we are proud that one of 
our young adult tribal members recently addressed the United 
Nations on the urgency of protecting the indigenous languages 
of this Country.
    Jim Crow laws did not allow my tribe to have a State 
reservation. Our State recognition was by concurrent 
resolutions passed by the House and Senate of the State of 
Florida. It is the best that you get in Florida, and we are the 
only Tribe that has this. In Florida, we have no Indian 
commission to oversee a State recognition. If we are not a 
Federal tribe, we are considered to be nothing at all.
    The legacy of Jim Crow laws is that southeastern tribes 
historically require intervention from Congress. We are not an 
exception to the rule with this legislation; we are the norm. 
The May 23rd, 2008 policy letter from the former deputy 
director of the BIA removed any doubts as to whether my Tribe 
should be in this Committee with Senate Bill 514. A unilateral 
pronouncement in his policy letter enabled another 
acknowledgment applicant to be bumped to the top of the list 
for review.
    If the criteria for recognition can be arbitrarily and 
capriciously changed and interpreted, then there is no reason 
to believe that Muscogee Nation of Florida will ever receive 
due process or timely disposition. We can be ignored and 
selectively bypassed by other applicants, regardless of filing 
dates, and tossed out of the process and told to find another 
method without full review of our tribal data.
    The BIA process is broken beyond repair for the Muscogee 
Nation of Florida. My tribal government has determined that 
congressional recognition is our only option. Our arduous 
journey from Bruce, Florida to these halls of Congress has 
taken us 150 years. We now stand ready, waiting for active 
consideration for Congress to take action on Senate Bill 514. 
Thank you for allowing us to testify today.
    [The prepared statement of Ms. Tucker follows:]

  Prepared Statement of Hon. Ann Denson Tucker, Chairwoman, Muscogee 
                           Nation of Florida
Introduction
    Chairman Dorgan, Honorable Committee Members, my name is Ann Denson 
Tucker. I am Chairwoman of the Muscogee Nation of Florida, the Florida 
Tribe of Eastern Creek Indians. Thank you for inviting me to testify 
about my tribe's experience with the federal recognition process.
    My tribe needs and deserves federal recognition, and we need 
Congress to take action. Three decades of paperwork, costs, and delays 
are sapping my tribe of economic resources that could be going to help 
our members and delaying our ability to access federal programs 
designed to help tribes in our situation.
First, I would like to remind you about who my tribe is.
    The Muscogee Nation of Florida, also known as the Florida Tribe of 
Eastern Creek Indians, is a tribe of Creek Indian people whose home is 
centered in Bruce, in Walton County, Florida. Our ancestors signed 11 
treaties with the United States between 1790 and 1833 that led to their 
forced removal from their traditional homelands. Eventually, our tribal 
ancestors left their Indian enclave in Daleville, Alabama and followed 
the Choctawhatchee River south to Bruce Creek, where we re-established 
our community and homes, fished, hunted, farmed cooperatively, raised 
cattle, and practiced our traditional ceremonies. My Tribe has lived on 
this land as a community and as a cultural, social and political unit 
for 150 years.
Unfortunately, the tale of my tribe is not complete without 
        understanding the effort that was made to erase us from 
        history.
    By the time we migrated from Daleville to Bruce, Jim Crow laws had 
been enacted in Florida (see attachment 2). By 1850 it was illegal to 
trade with Indians. And in 1852, it became illegal--under penalty of 
death--for Indians to be ``Indian,'' unless the Indian was a Seminole 
or was confined to a Reservation.
    Because my tribe neither was Seminole nor had a reservation, the 
Jim Crow laws made it impossible for my tribe to openly embrace its 
cultural heritage and community. While we survived, until the Jim Crow 
laws were repealed by federal law, the Civil Rights Act, the tribe was 
forced to hide its government, traditional ceremonies, and culture. As 
a result, satisfying BIA's tribal recognition requirements became 
difficult, but we struggled to meet their paperwork demands. However, a 
series of changes of BIA recognition regulations has made the task 
impossible because the agency is demanding written documents that do 
not exist because Jim Crow laws criminalized interactions with our 
tribe.
This brings us to why I am here today--the BIA has made it clear that 
        they do not intend to act on our tribe's petition for 
        recognition.
    It has been 60 years since our community leader--my great 
grandfather-wrote to the BIA and explained that our people deserved 
compensation for lands taken under the Treaty of Ft. Jackson (see 
attachment 3). BIA's response, which is on file in the Federal 
Archives, was dismissive, declaring curtly, ``You are mistaken. You 
cannot possibly be who you say you are because the members of that 
Tribe are either dead or removed. . .'' Fast forward to 1957, when the 
Seminole Tribe of Florida gained federal recognition and BIA finally 
acknowledged that it had not rid the Southeast of the Florida Tribe of 
Eastern Creek Indians. Fast forward again, 14 years, to 1971, when BIA 
finally verified our racial identification to the U.S. Government and, 
in turn, to the State of Florida. By then, my great grandfather had 
been dead for 2 years, and we had already spent 24 years trying to get 
BIA to acknowledge our existence as Indians, much less our status as a 
tribe. Now, 37 years later, I am here to tell you that our Indian 
community and tribal government are still waiting, and we need Congress 
to intervene.
    My tribe has spent many thousands of dollars and an untold amount 
of time trying to satisfy the BIA. We have retained attorneys, 
historians, genealogists, archaeologists and other experts to try to 
satisfy BIA's requirements. And we have done it all over again when 
BIA's requirements changed. After each attempt we have been met with 
new demands and no substantive action.
    The BIA made is crystal-clear earlier this year that they do not 
intend to take any reasonable actions to address our circumstances. On 
May 23rd, BIA published new guidance and direction regarding its 
internal procedures for evaluating petitions by Indian tribes for 
Federal acknowledgement. The guidance explicitly states that all tribes 
must be able to document continuous tribal existence in a manner that 
demonstrates that the tribe is entitled to a ``government-to-government 
relationship with the United States.'' As I just explained, we cannot 
satisfy this standard-because of Jim Crow laws designed to erase my 
tribe from history.
    The new guidance makes it clear that now one of two things will 
happen to the Muscogee Nation of Florida: (1) the BIA will address 
other petitions, even those submitted years after the Muscogee Nation 
of Florida's submission, and will ``not expend time on the'' tribe 
because it cannot produce certain documents-and the petition will 
continue to flounder for many more years; or (2) the BIA will notify 
the Muscogee Nation of Florida that it does not meet BIA standards and 
will inform the tribe of ``alternatives, if any, to acknowledgement.''
    In the end, the BIA cannot help my tribe because their regulations 
cannot recognize the unique circumstances my tribe faces. Indian tribes 
share much in common, but each tribe is also unique. We live in 
different geographic areas, have differing cultures and traditions, and 
have faced different legal barriers in the States where we reside. BIA 
regulations cannot accommodate these differences, and for tribes like 
mine that means we spend decades languishing in a regulatory purgatory. 
While BIA changes their rules and guidance over time, the results do 
not change. And although Jim Crow laws were eventually repudiated and 
eliminated, they continue to operate in the shadows by preventing our 
tribe from meeting BIA standards.
My people need your help.
    We have worked hard over recent years to tell our story and educate 
lawmakers about our plight. We request that this committee support S. 
514, The Muscogee Nation of Florida Federal Recognition Act. This 
legislation is supported by both Senators from Florida, in the House by 
our local members of the House of Representatives.
    S. 514 is the only path for our tribe out of the continually 
shifting maze of BIA regulations, guidance, and demands. My people have 
endured delays and mistreatment for too long, and we seek your 
assistance. As each year passes, the tribe struggles to care for its 
members needs as it becomes more and more difficult to imagine when we 
will receive the federal recognition to which we are entitled. The 
tribal leaders who began the recognition process in their youth are now 
tribal elders. Our elders, like my mother, deserve to be recognized 
before they pass, and your assistance is our only hope for making this 
a reality.
    Thank You.
Attachments *
---------------------------------------------------------------------------
    * The information referred to is printed in the Appendix.
---------------------------------------------------------------------------
    1) Muscogee Nation of Florida-Executive Summary

    2) Florida Jim Crow laws

    3) Court case permitting compensation for lands taken under Treaty 
of Ft. Jackson

    4) Demographics of tribe 1900-current

    5) Walton County endorsement of S-514

    The Chairman. Chairwoman Tucker, thank you very much for 
being here and for your testimony today.
    Next, we will hear from the Honorable Ron Yob, the Chairman 
of the Grand River Bands of Ottawa Indians in Michigan.
    Mr. Yob, thank you. You may proceed.

   STATEMENT OF HON. RON YOB, CHAIRMAN, GRAND RIVER BANDS OF 
                         OTTAWA INDIANS

    Mr. Yob. Good afternoon, Chairman Dorgan, Vice Chairman 
Murkowski, and members of the Senate Committee on Indian 
Affairs. My name is Ron Yob, and I Chairman of the Grand River 
Bands of Ottawa Indians of Michigan. On behalf of my tribe, I 
want to thank you for the opportunity to testify today on S. 
1058, a bill to expedite review of the Grand River Tribe's 
petition. With me today is one of my tribal council members, 
Philip Cantu.
    We strongly believe that recognition of our Tribe is long 
overdue. We are the largest treaty tribe in the Midwest that 
does not have a government-to-government relationship with the 
United States. Our forefathers entered into five separate 
treaties with the United States: in 1795, 1807, 1821, 1836, and 
1855. In the 1855 one, my great-great-great grandfather was one 
of the signatories of that treaty.
    Over 700 members watch as their cousins, who are enrolled 
in other Michigan tribes, enjoy the benefits of Federal 
recognition. Our members wonder why Federal education and 
health care is not available to us. It is very sad to be denied 
our birthright as this Nation's first Americans. Over 250 of 
our members are one-half blood Grand River Ottawa. Little River 
has already negotiated our treaty land rights through 
agreements with utility companies without our participation or 
input. We need recognition so we will be at the table.
    Our inland hunting and fishing rights were negotiated by 
the other treaty tribes in the State of Michigan and the United 
States. Grant River was not at the table. We were told not to 
intervene, and we had no money to do so, in any case. We 
believe that if Congress does not act soon on our recognition, 
the damage to our culture and traditions could be very severe.
    If we have to wait the 20 or 25 years it will take the BIA 
to act, many of our elders will be gone. They are our language 
speakers who need to pass their knowledge down. Without help 
from Congress, it would be very hard to maintain the transfer 
of our culture to our children. We are trying very hard to keep 
our traditions alive, but every year that goes by it becomes 
more and more difficult.
    We are certain that we meet the seven mandatory criteria 
established by the BIA and the regulations that are found at 
Part 83.7 of Section 25 of the U.S. Code of Federal 
Regulations. The documents we provided to the BIA prove this. 
We have been identified as a distinct community since 1900. The 
Tribe has existed as a community from historical times until 
the present. The Tribe has maintained political influence over 
its member from historical times to the present.
    BIA has a copy of our current governing documents, 
including our membership criteria. Our members are individuals 
who descend from a historic Indian tribe. Our members are not 
members of other federally recognized Indian tribes and our 
Tribe has not been terminated by an act of Congress. We have 
documented these criteria thoroughly, but I am quite sure that, 
as I sit here, the BIA has not begun to review the additional 
material we submitted in 2006 and will not look at those 
documents until well into the next decade, if then.
    Meanwhile, at great expense and no financial assistance 
from the Government, the Tribe has had to, and will in the 
future, continuously update all the material and file it with 
the BIA. Recognized tribes receive Government loans and grants 
to maintain their important tribal government infrastructures. 
The simple fact is that the Federal Government system is 
broken. There is no way it can be fixed unless Congress steps 
in with a new law of additional funds. At this point, that does 
not seem likely.
    Congress has regularly reviewed the recognition process at 
least since the early 1980s and has agreed that the process is 
broken. In fact, Congress knows the regulations now in place 
are not based on any law passed by Congress. We hope that 
Congress will pass our bill with amendments to bring it up to 
date. We are happy to work with the Committee staff on new 
language. We have been on the current recognition system for 14 
years, and hope that we do not have to wait another 20 years 
for a final determination of our status.
    As my testimony points out, Grand River applied for 
reorganization in 1935, but we were denied because the Tribe 
had no land base and the Department had no money for land 
purposes. Congress has preliminary authority over Indian 
Affairs. As such, in the end, Congress has the responsibility 
for determining who are Indians and which tribes deserve 
Federal reaffirmation. No one is closer to the issues than the 
members of Congress and Senators from the States where the 
tribes are located. In all of the cases before you today, 
support from members of the House and Senate for the tribes 
involved is evident and should be respected.
    I want to thank you for letting me present that.
    [The prepared statement of Mr. Yob follows:]

  Prepared Statement of Hon. Ron Yob, Chairman, Grand River Bands of 
                             Ottawa Indians
    Good afternoon Chairman Dorgan, Vice Chairman Murkowski and Members 
of the Senate Committee on Indian Affairs. My name is Ron Yob and I am 
Chairman of the Grand River Bands of Ottawa Indians (``Tribe'') of 
Michigan. Thank you very much for holding this hearing today on the 
bill, S. 1058, that would expedite review of the Tribe to secure a 
timely and just determination of whether the Tribe is entitled to 
recognition as a Federal Indian tribe. We would like to take this 
opportunity to express our deep appreciation to Senator Levin and 
Senator Stabenow for their interest and support of our Tribe and for 
introducing this legislation on our behalf.
    The two Senators also introduced a bill on behalf of the Tribe in 
the 109th Congress, S. 437, on which this Committee held a hearing on 
June 21, 2006. No companion bill has been introduced in the House of 
Representatives, although we are working with Congressman Hoekstra on a 
bill to provide direct congressional recognition of the Tribe in the 
same manner as Congress, in 1994, recognized our sister tribes, the 
Little Traverse Bay Bands of Odawa Indians and the Little River Band of 
Ottawa Indians.
    For many valid reasons, the Tribe is very hopeful that the 
Committee will favorably consider S. 1058 or a similar bill. The story 
of our Tribe is long and varied, as is the story of recognition of all 
of the Michigan Indian Treaty Tribes of which the Grand River Bands of 
Ottawa Indians may be the only one that remains unrecognized. \1\ The 
Grand River Bands of Ottawa Indians is the largest unrecognized Treaty 
Tribe in Michigan--and perhaps in the entire United States. Our members 
live primarily in western Michigan, in the same area we have lived 
since before the Europeans first arrived there. Many elders speak our 
Ottawa language. Our pre-history burial mounds are located along the 
Grand River near the City of Grand Rapids and in many other areas of 
the River from below Lansing to Grand Haven.
---------------------------------------------------------------------------
    \1\ Burt Lake was not a named group in the treaties but its members 
may descend from treaty signatories. It was denied recognition by the 
BIA and Representative Stupak has introduced legislation to recognize 
that group.
---------------------------------------------------------------------------
Tribal History
    Who We Are: The Grand River Bands of Ottawa Indians of Michigan is 
composed of the 19 bands of Ottawa Indian who occupied the territory 
along the Grand River Valley and other river valleys in what is now 
Southwest Michigan, including the cities of Grand Rapids and Muskegon. 
The Tribe has about 700 enrolled members and the majority live in and 
around the counties of Kent, Muskegon and Oceana.
    Treaties: The members of Grand River Bands of Ottawa Indians are 
descendants of the signatories of the 1795 Treaty of Greenville, the 
1807 Treaty of Detroit, the 1821 Treaty of Chicago, the 1836 Treaty of 
Washington (DC), and the 1855 Treaty of Detroit. The Grand River Bands 
of Ottawa Indians is a political successor Tribe to the original Tribes 
represented at the Treaty signings. Other Michigan Treaty Tribes 
include the Little Traverse Bay Bands of Odawa Indians, the Little 
River Band of Ottawa Indians, the Grand Traverse Band of Ottawa and 
Chippewa Indians, the Sault Ste. Marie Tribe of Chippewa Indians, and 
the Bay Mills Indian Community. Their members are also descendants of 
the signers of the 1836 Treaty of Washington and the 1855 Treaty of 
Detroit. All of these successor Tribes have now been recognized by the 
United States except for the Grand River Bands of Ottawa Indians and, 
perhaps, the Burt Lake Band of Ottawa Indians. Below is a description 
of our Tribe, our continued efforts as a community to seek redress of 
our tribal land claims, and our recognition efforts.
    Continuous Existence: The Grand River Bands of Ottawa Indians 
consists of several inter-related extended families which comprise a 
kinship organization that functions today much the same way we did 
before Treaty times. As a community we gather for religious 
celebrations, social gatherings, and to attend to the graves of our 
ancestors. We also host the annual Homecoming of the Three Fires Pow 
Wow in Grand Rapids as we did again in June 2008. The political 
leadership of our Tribe has, to a great extent, been passed down from 
Headmen and Chiefs of Treaty times, within the same families. Each 
generation of leaders has represented the Tribe in dealings with the 
United States and other Tribes, and tried to provide health, education 
and economic assistance to tribal members by whatever means available.
    Tribal Land Claims: In the 1940s, the Grand River Bands of Ottawa 
Indians organized with other Tribes in Michigan under the name of the 
Northern Michigan Ottawa Association to pursue claims for reservation 
lands that were taken from us without compensation. The Tribe filed 
claims under the Indian Claims Act of 1946 (25 USC Sec. 70; Chap.2A) 
and the Indian Claims Commission (ICC) awarded judgment in favor of the 
Tribe in several dockets. These awards for Grand River Bands of Ottawa 
Indians and others became the subject of two settlement Acts of 
Congress for the distribution of the funds.
    1976 Tribal Judgment Fund Distribution Settlement Act: In 1976, the 
Congress enacted P.L. 94-540, the Grand River Band of Ottawa Indians--
Disposition of Funds to provide for the distribution of funds awarded 
to the Tribe in Docket 40-K of the ICC. The funds were allocated to 
persons of Grand River Bands of Ottawa Indian blood who were 
descendants of persons who appeared on the 1908 Durant Roll or other 
census rolls acceptable to the Secretary and who were one-quarter (\1/
4\) degree Grand River Bands of Ottawa Indians blood.
    1997 Michigan Indian Land Claims Settlement Act: In 1997, the 
Congress passed the Michigan Indian Land Claims Settlement Act to 
implement distribution of several land claim awards. By this time, five 
Michigan successor Tribes to the Ottawa and Chippewa Treaties had been 
recognized by the United States. The first, Bay Mills Indian Community 
(Chippewa), was recognized by the Secretary in 1935-37. In the 1970s, 
the Sault Ste. Marie Tribe of Chippewa Indians was recognized by the 
Department of the Interior prior to promulgation of the 1978 
regulations governing federal acknowledgment procedures. The Grand 
Traverse Band of Ottawa and Chippewa Indians was the first to be 
recognized under the new regulations. Finally, the Little Traverse Bay 
Bands of Odawa Indians and the Little River Band of Ottawa Indians were 
recognized by an Act of Congress in 1994.
    The 1997 Settlement Act provided for the distribution of funds 
awarded in ICC dockets 18-E, 58, and 364 (Ottawa and Chippewa) and 
docket 18-R (Bay Mills and Sault Ste. Marie). The Act reflected the 
Tribes' agreement as to distribution and shares. The per capita shares 
for the members of the unrecognized Tribes were included in the 1997 
Act along with a set-aside for any Tribes that might be recognized 
within a specific time frame. Section 106(d)(1) of the Act describes 
the potential eligible unrecognized treaty tribes as: Grand River, 
Traverse, Grand Traverse, Little Traverse, Maskigo, or L'Arbre Croche, 
Cheboigan, Sault Ste. Marie, Michilmackinac. In the 1997 Act, we 
believe the Congress used tribal names that were contained in the 
treaties that gave rise to the land claims.
    Of the nine other Michigan groups currently on the BIA list of 
groups petitioning for federal recognition, the Grand River Bands of 
Ottawa Indians is the only one that represents--by name--a historic 
Michigan Treaty Tribe. This is important because the 1997 law set aside 
funds for treaty descendants who are not members of a federally 
recognized tribe but who are one-quarter blood Ottawa/Chippewa. It also 
set aside funds for the unrecognized Tribes, such as the Grand River 
Bands of Ottawa Indians, for the operation of tribal programs.
    The Act provided that, to be eligible for the set-aside, an 
unrecognized Tribe must have filed its documented petition by December 
15, 2000 (3 years after date of enactment). The Grand River Bands of 
Ottawa Indians filed it petition on December 8, 2000. The Act gave the 
BIA six years to issue a final determination. Unfortunately, despite 
the fact that the Tribe filed its petition within the timeframe set by 
Congress, the Bureau of Indian Affairs' Office of Federal 
Acknowledgment has still, to this day, failed to act on the Tribe's 
petition. The judgment funds were paid to members in June 2007, about 
eight weeks after our bill, S. 1058, was introduced in the 110th 
Congress. Our Tribe will not receive its share of the judgment funds or 
the bonus funds that Congress had set aside in the 1997 Act for newly 
recognized treaty tribes. That money is now gone forever, yet there is 
no penalty against the BIA for its failure to abide by the requirements 
of the law.
    Tribal Recognition Efforts: In 1934, the Tribe filed to reorganize 
its government under the Indian Reorganization Act enacted that same 
year. Commissioner of Indian Affairs John Collier (and author of the 
IRA) concluded that the Tribe was eligible for reorganization. However, 
we were put on hold because of federal funding issues. After World War 
II, the Federal Government's position toward Tribes changed and the 
Termination era took hold in earnest in the 1950s. Thus, reorganization 
was not an option politically so the Tribe's efforts were put on hold 
again. (The Tribe remained actively engaged during this period, 
however, in pursuing our Treaty land claims as discussed above.). 
During the 1970s and 1980s Tribal leaders did not pursue Federal 
Recognition as some of our elders and leaders, believing we were 
already recognized by the United States, feared that this process would 
actually threaten our status as a sovereign nation.
    However by the early 1990s we recognized that formal federal 
recognition would be necessary for us to pursue treaty, statutory 
rights and the protection of our people. In 1994, the Tribe filed a 
letter of intent with the BIA to file a petition for recognition and 
the Grand River Bands of Ottawa Indians is petitioner #146.
    After making our submission on December 8, 2000 (21 boxes--three 
sets each of seven archival boxes), the Grand River Bands of Ottawa 
Indians did not hear from the Bureau of Indian Affairs until April 2004 
when they granted us a technical assistance meeting at the request of 
Congressman Pete Hoekstra. It took another nine months for us to 
receive our 29-page technical assistance (TA) letter on January 26, 
2005. The Grand River Bands of Ottawa Indians spent the next 17 months 
gathering materials and preparing a 63-page legal response supported by 
a 265-page ethno-historical response to the TA letter, including 
additional documents and two certified copies of all of our membership 
documents. The Tribe filed this response to the TA letter on June 9, 
2006.
    Conclusion: We know the Committee is well aware of the time 
consuming and very expensive work that goes into filing a petition for 
Federal recognition as an Indian Tribe. We have no doubt that the Grand 
River Bands of Ottawa Indian meets the seven criteria set out in the 
regulations and is qualified to be recognized by the Federal government 
and to enjoy the benefits of the trust protection and the government-
to-government relationship that will ensue. If S. 1058 is not passed 
and the Grand River Bands of Ottawa Indians remains mired in the 
Federal Acknowledgment Process, we estimate it will take 15 to 25 years 
for recognition to come. In the meantime, our tribal citizens do not 
share the benefits that their cousins in other Michigan Tribes enjoy. 
And many of our elders will be gone without having had the benefit of 
recognition. Our Indian children will not be considered to be Indian 
children for purposes of the Indian Child Welfare Act, 25 USC Sec. 1901 
et seq., and will not be protected as Congress intended.
    The Grand River Bands of Ottawa Indians has the support of its 
community, other Michigan Tribes, and our Senators, as evidenced by 
their introduction of S. 1058. This bill does not directly recognize 
the Tribe but instead refers the matter to the Bureau of Indian Affairs 
for a determination, with timelines for deciding the Tribe's status and 
filing a Report to Congress.
    Now that the BIA has utterly failed to meet its obligations under 
the 1997 Act, we hope that Congress will grant federal status to the 
Grand River Bands of Ottawa Indians in the same manner that it 
reaffirmed the existence of four other Michigan Tribes--Lac Vieux 
Desert in 1988, and, in 1994, the Little River Band of Ottawa Indians, 
the Little Traverse Bay Bands of Odawa Indians, and the Pokagon Band of 
Potawatomi Indians. There is ample precedent for direct reaffirmation 
of our status. We are painfully aware that Congressional Acts to 
recognize Tribes have fallen out of favor and believe S. 1058 will give 
Congress the needed assurance that the Grand River Bands of Ottawa 
Indians is deserving of the Federal relationship.
    The September 2004 issue of National Geographic magazine contains a 
map of historic Indian country which shows the ``Grand River Ottawa'' 
as the historic Tribe of Southwestern Michigan. We know that the 
opinion of mapping scholars does not match the exhaustive work of the 
OFA in determining whether an existing tribal group is indeed the 
successor to an historic Tribe, but we are confident that the Grand 
River Bands of Ottawa Indians is such a Tribe and take pride in 
realizing that many others think so, too.
    The Grand River Bands of Ottawa Indians has always been an active 
leader in the Michigan Indian community. We participate, though often 
unofficially, in Indian Child Welfare cases, NAGPRA repatriation 
matters and other Indian affairs dealings with state, local and private 
entities. We also spearheaded the return of the original 1855 Treaty to 
Grand Rapids that was exhibited in the Museum named for former 
President Gerald Ford.
    We are attaching the ``Resolution of the Grand River Bands of 
Ottawa Indians June 18, 2002'' that authorizes the Tribe to seek 
legislation in Congress to direct the Department of the Interior to act 
timely on our petition.
    Thank you again for you attention to S. 1058 and we implore the 
Committee to act quickly on this legislation.

    The Chairman. Mr. Yob, thank you very much for your 
testimony.
    Finally, we will hear from Dr. Helen Rountree, Professor 
Emeritus at Old Dominion University, Department of 
Anthropology, in Norfolk, Virginia.
    Ms. Rountree, thank you very much.

  STATEMENT OF HELEN C. ROUNTREE, Ph.D., PROFESSOR EMERITUS, 
                DEPARTMENT OF ANTHROPOLOGY, OLD 
                      DOMINION UNIVERSITY

    Ms. Rountree. Thank you.
    Mr. Chairman, members of the Committee, and guests, it is 
my honor to speak on behalf of these Virginia Indian people, 
with whom I have been working intensively since 1969. I would 
add I haven't gotten a dime for it.
    I am Dr. Helen C. Rountree, Professor Emerita of 
Anthropology at Old Dominion University in Norfolk, Virginia. I 
have produced seven books so far on the native people of 
Virginia.
    At this point, I request that all testimony, written and 
oral, that has been presented in previous hearings on the 
Virginia tribes be entered into the record along with today's 
testimony.
    The Chairman. Without objection.
    Ms. Rountree. Thank you, sir.
    The ancestors of the tribes I speak for were native to 
Virginia when Jamestown was founded. All were signatories in 
1677 to a treaty between the Virginia tribes and the King of 
England. However, they became landless as non-Indian settlers 
poured in and, by Virginia custom--not law--such Indian 
communities were considered to be outside the scope of the 
treaty. The treaty itself was with the King of England and is 
now considered to be with the Commonwealth of Virginia, not the 
United States. These tribes, therefore, remained State Indians 
in a State that ignored them, a situation very different from 
that of the other three tribes represented in this hearing.
    When much more detailed U.S. census records began to be 
made in 1850, these people do appear as enclaves and, in some 
U.S. censuses, specifically Indian ones. They are traceable as 
the ancestors of the six Virginia tribes before you today.
    The Office of Federal Acknowledgment has just this year 
issued changes to try to speed up the Federal recognition 
process, but they do very little for the six tribes of whom I 
speak. Most of the changes are for tribes with a treaty and/or 
IRA relationship with the Federal Government, which these six 
tribes do not have. The remaining change, moving up the 
starting date to 1789, does not do much for them either. Aside 
from the problems with pre-1850 records, which I have 
documented elsewhere, there are problems with State and local 
records that make these Indian communities hard for a 
researcher to track. It is as if the ever-growing legend of 
Pocahontas--thank you, Disney--contrasted with the reality of 
19th and 20th century Indian people, made Anglo-Virginians ever 
less tolerant of anything other than the legend.
    Beginning after the Civil War and culminating with 
Virginia's Racial Integrity Law of 1924, Virginia became a 
State committed to the proposition that there were only two 
races, ``white'' and ``colored,'' leaving no room for Indians. 
Under the 1924 law, anyone insisting upon an Indian identity on 
an official document could be sent to prison for a year. 
Several people were, in fact, imprisoned for such insistence. I 
knew one of them, by the way, personally.
    The campaign to eliminate Indians from the State was headed 
by the State's Vital Statistics Bureau, which went so far as to 
issue a circular with ``suspicious'' families' names listed 
county by county. The families were referred to as ``these 
mongrels.'' The circular was sent to all officials in charge of 
county records, all school superintendents, and all licensed 
health personnel, who signed off on birth and death 
certificates, in the State. It is no wonder that these Indian 
communities became much harder for researchers to find.
    Some of their members left the State, keeping up their ties 
to home but returning only during the Civil Rights era when 
they no longer had to be, as one old-timer said to me, ``scared 
like a rabbit.'' But the communities hung together and hung on, 
as the attached quick-reference chart will show. That is page 4 
of my testimony. They still exist, and they still say they are 
Indians. And even now, so thorough was the public relations 
campaign against them for decades, they meet skepticism on a 
daily basis.
    The tribes I speak for today consulted a BIA representative 
over a decade ago and were told that even if they submitted a 
petition forthwith, they would not see a decision ``in your 
lifetime.'' And this was said to people then in their 40s. The 
six tribes are not merely being impatient in wanting to move 
faster than that. Their primary motive for seeking Federal 
recognition is getting better access to health programs, badly 
needed by their elders now.
    Little schooling in Virginia was available to those people 
when they were young, if they wanted to remain ``Indians'' in 
the State. See the quick-reference chart; it will tell you how 
many schools did not go beyond grade school. Therefore, their 
income level has suffered ever since, and in their old age they 
are hurting badly. The six tribes are not interested in 
remedying that fact through gaming. In fact, they have waived 
their rights to gaming, if they are recognized. Instead, they 
hope to provide better conditions for their people through 
Federal Indian programs after recognition by the United States 
Congress.
    These tribes have endured over three centuries of 
injustice, some of the worst of it and by far the most public 
of it being in the recent past. Without Federal recognition and 
the aid springing from it, the injustice is ongoing. I hope 
that you will accede to their request for acknowledgment. Thank 
you.
    [The prepared statement of Ms. Rountree follows:]

  Prepared Statement of Helen C. Rountree, Ph.D., Professor Emeritus, 
          Department of Anthropology, Old Dominion University
    Mr. Chairman, members of the Committee, and guests: It is my honor 
to speak on behalf of these Virginia Indian people, with whom I have 
been working intensively since 1969. I am Dr. Helen C. Rountree, 
Professor Emerita of Anthropology at Old Dominion University in 
Norfolk, Virginia. I have produced seven books, so far, on the Native 
people of Virginia.
    At this point, I request that all testimony, written and oral, that 
has been presented in previous hearings on the Virginia tribes be 
entered into the record along with today's testimony.
    The ancestors of the tribes I speak for were native to Virginia 
when Jamestown was founded; all were signatories in 1677 to a treaty 
between the Virginia tribes and the King of England. However, they 
became landless as non-Indian settlers poured in, and by Virginia 
custom (not law) such Indian communities were considered to be outside 
the scope of the treaty. The treaty itself was with the King of England 
and is now considered to be with the Commonwealth of Virginia, not the 
United States. These tribes therefore remained ``state'' Indians in a 
state that ignored them, a situation very different from that of the 
other three tribes represented in this hearing. When much more detailed 
U.S. Census records began to be made in 1850, these people appear as 
enclaves and, in some U.S. Censuses, specifically Indian ones. They are 
traceable as the ancestors of the six Virginia tribes before you today.
    The Office of Federal Acknowledgment has just this year issued 
changes to try to speed up the federal recognition process, but they do 
very little for the six tribes of whom I speak. Most of the changes are 
for tribes with a treaty and/or I.R.A. relationship with the Federal 
Government, which these six tribes do not have. The remaining change, 
moving up the starting date to 1789, does not do much for them, either. 
Aside from the problems with pre-1850 records, which I have documented 
elsewhere, there are problems with state and local records that make 
these Indian communities hard for a researcher to track. It is as if 
the ever-growing legend of Pocahontas, contrasted with the reality of 
19th and 20th century Indian people, made Anglo-Virginians ever less 
tolerant of anything other than the legend.
    Beginning after the Civil War and culminating with Virginia's 
Racial Integrity Law of 1924, Virginia became a state committed to the 
proposition that there were only two races, ``white'' and ``colored,'' 
leaving no room for Indians. Under the 1924 law, anyone insisting on an 
Indian identity on an official document could be sent to prison for a 
year. Several people were, in fact, imprisoned for such insistence. The 
campaign to eliminate Indians from the state was headed by the state's 
Vital Statistics Bureau, which went so far as to issue a circular with 
``suspicious'' families' names listed county by county. The families 
were referred to (and I quote) as ``these mongrels.'' The circular was 
sent to all officials in charge of county records, all school 
superintendents, and all licensed health personnel (who signed off on 
birth and death certificates) in the state. It is no wonder that these 
Indian communities became much harder for researchers to find. Some of 
their members left the state, keeping up their ties to home but 
returning only during the Civil Rights era when they no longer had to 
be, as one old-timer said to me, ``scared like a rabbit.'' But the 
communities hung together and hung on, as the attached quick-reference 
chart will show. They still exist, and they still say they're Indians. 
And even now, so thorough was the public relations campaign against 
them for decades, they meet skepticism on a daily basis.
    The tribes I speak for today consulted a BIA representative over a 
decade ago and were told that even if they submitted a petition 
forthwith, they would not see a decision ``in your lifetime'' (this was 
said to people then in their 40s). The six tribes are not merely being 
impatient, in wanting to move faster than that. Their primary motive 
for seeking federal recognition is getting better access to health 
programs, which are badly needed by their elders now. Little schooling 
within Virginia was available to those people when they were young-if, 
that is, they wanted to remain ``Indians'' in the state (see the quick-
reference chart). Therefore their income level has suffered ever since, 
and in their old age they are hurting badly. The six tribes are not 
interested in remedying that fact through gaming-in fact, they have 
waived their rights to gaming, if they are recognized. Instead they 
hope to provide better conditions for their people through federal 
Indian programs, after recognition by the United States Congress.
    These tribes have endured over three centuries of injustice, some 
of the worst of it and by far the most public of it being in the recent 
past. Without federal recognition and the aid springing from it, the 
injustice is ongoing. I hope that you will accede to their request for 
acknowledgment.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Dr. Rountree, thank you very much for you 
testimony as well.
    I wonder if I might depart from tradition and ask Mr. 
Fleming, who is the Director of the Office of Federal 
Acknowledgment, if you would be willing to come up to the table 
even as the witnesses are there.
    Mr. Fleming, would you be willing to come over on the side 
of Dr. Rountree and present your testimony so that we might ask 
questions? And I appreciate your willingness to do that. We 
will include your full statement in the record. Mr. Fleming is 
the Director of the Office of Federal Acknowledgment in the 
Department of the Interior, and he will discuss the 
Department's efforts to improve the process.
    Mr. Fleming, welcome. If you would proceed, we will make 
your full statement a part of the record.

       STATEMENT OF R. LEE FLEMING, DIRECTOR, OFFICE OF 
        FEDERAL ACKNOWLEDGMENT, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Fleming. Good afternoon, Mr. Chairman and members of 
the Committee. My name is Lee Fleming, and I am the Director of 
the Office of Federal Acknowledgment at the Department of the 
Interior. I must say that my staff is a hard-working and 
dedicated staff, and we appreciate the regulations under which 
we are obligated.
    I am here today to provide the Administration's testimony 
on S. 514, S. 724, S. 1058, and H.R. 1294. The acknowledgment 
of the continued existence of another sovereign is one of the 
most solemn and important responsibilities delegated to the 
Secretary of the Interior. Federal acknowledgment enables 
Indian tribes to participate in Federal programs and 
establishes the government-to-government relationship between 
the United States and the Indian tribe, and has considerable 
social and economic impact on the petitioning group, its 
neighbors, and Federal, State, and local governments.
    We recognize that under the United States Constitution, 
Congress has the authority to recognize a distinctly Indian 
community as an Indian tribe. But along with that authority, it 
is important that all parties have the opportunity to review 
all the information available before recognition is granted. 
That is why we support a recognition process that requires 
groups to go through the Federal acknowledgment process because 
it provides a deliberative uniform mechanism to review and 
consider groups seeking Indian tribal status.
    Legislation such as these four bills would allow these 
groups to bypass this process, allowing them to avoid the 
scrutiny to which other groups have been subjected. While 
legislation in Congress can be a tool to accomplish 
recognition, a legislative solution should be used sparingly in 
cases where there is an overriding reason to bypass the 
process. The Administration supports all groups going through 
the Federal acknowledgment process under 25 C.F.R. Part 83.
    The Department, in 1978, recognized the need to adopt 
uniform regulations for Federal acknowledgment. Since 1978, 103 
decisions have been issued: 50 proposed findings, 46 final 
determinations, and 7 reconsidered final determinations. Ron 
Yob outlined the seven mandatory criteria and my written 
testimony will have that information.
    I want to say that over the past year the Department has 
taken several actions to expedite and clarify the Federal 
acknowledgment process. Some of these actions required changes 
to internal workload processes to eliminate backlogs in delays 
and others will require amendments to the regulations. Our goal 
is to improve the process so that all groups seeking 
acknowledgment can be processed and completed within a set time 
frame.
    I won't go over the 12 decisions or events that have taken 
place over the past year, but they are listed here in the 
testimony. One of the most significant, though, was the 
publication of the guidance and direction in the Federal 
Register regarding internal procedures for the Office of 
Federal Acknowledgment.
    I would like to turn now to the status of the petitions 
that are affected by the four bills. S. 514 provides Federal 
recognition as an Indian tribe to a Florida group known as the 
Muscogee Nation of Florida, which is currently a petitioner in 
the Department's Federal acknowledgment process. This group 
submitted to the Department its letter of intent in 1978 and 
completed documenting its petition in 2002, 24 years of 
researching. Currently, the group is fifth in line on the 
Ready, Waiting for Active Consideration list, thus, ready for 
the Department to review and evaluate its evidence under the 
seven mandatory criteria.
    S. 724 provides Federal recognition as an Indian tribe to a 
Montana group known as the Little Shell Tribe of Chippewa 
Indians of Montana, currently a petitioner under our process. 
This group submitted to the Department its letter of intent in 
1978 and completed documenting its petition in 1995. They took 
17 years to research and provide documentation. Currently, this 
group is on Active Consideration and a final determination is 
expected early 2009.
    S. 1058 provides an expedited review for Federal 
recognition as an Indian tribe to a Michigan group known as the 
Grand River Bands of Ottawa Indians, also currently a 
petitioner under our process. The group submitted to the 
Department its letter of intent in 1994 and completed 
documenting its petition in 2007. The group had taken time to 
provide the evidence necessary. This group is ninth on the 
Ready list.
    H.R. 1294 is the bill that provides Federal recognition as 
Indian tribes to six Virginia groups. These groups are 
currently petitioners in the Department's Federal 
acknowledgment process and, under the regulations, these six 
groups have submitted letters of intent and partial 
documentation to petition for Federal acknowledgment as an 
Indian tribe.
    The Federal acknowledgment regulations provide a uniform 
mechanism and standards to review and consider groups seeking 
Indian tribal status. These four bills, however, allow these 
groups to bypass our process, thus avoiding the scrutiny to 
which other groups have been subjected. We look forward to 
working with these groups and assisting them further as they 
continue under the Federal acknowledgment process.
    This concludes my statement, and I am happy to answer any 
questions the Committee may have.
    [The prepared statement of Mr. Fleming follows:]

   Prepared Statement of R. Lee Fleming, Director, Office of Federal 
            Acknowledgment, U.S. Department of the Interior

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Mr. Fleming, thank you very much for your 
testimony. I have a few questions, and then I will turn to 
Senator Murkowski.
    We have this afternoon Defense Secretary Gates appearing 
before the Congress in a classified session, so we will 
truncate this just a bit. He is here to talk about the war in 
Iraq and Afghanistan.
    Mr. Fleming, Mr. Sinclair, in his testimony, talked about 
the frustration they have had with the dates that have been 
offered. The Director of OFA advised a Federal court in June of 
2005 that they expected to issue a final determination in 
February 2007. Then OFA advised the Tribe in writing to expect 
the commencement of active consideration of the final 
determination in August 2007. That didn't happen. Then they 
granted extensions and said it will be August 2008, with a 
final determination by the end of 2008. That didn't happen in 
August. Then on July 24th the Tribe received another letter 
from OFA granting itself one more extension, now maybe 2009.
    What is the reason for this? And can you put yourself in 
the position of a petitioner and say what on earth is going on? 
Wouldn't that be enormous frustration on the part of a 
petitioner who has been waiting a long, long, long time, only 
to find that your office keeps saying, well, it will be now, 
then it will be later, then later again? Tell me what is going 
on.
    Mr. Fleming. We have currently three full-time teams. A 
team is composed of an anthropologist, genealogist, and 
historian. We are pleased to announce that we have a fourth 
team that has been selected and we are able to apply these 
resources to the various groups that are on our plate. We have 
currently seven groups that are under what is known as Active 
Consideration. Little Shell is one that is right before us, 
where we are working to produce a final determination, which is 
the final decision for the Department on a case that has been 
before us.
    I might state that the group itself had requested 10 
extensions in the process. When the proposed finding was 
issued--and it was a positive proposed finding--the decision-
maker at the time warned the group that although this is a 
positive decision, you have 70-year evidentiary gaps that need 
to be filled, and if you do not fill those gaps, then a 
positive proposed finding could turn into a negative final 
determination.
    The Chairman. But that wasn't my question. I understand 
your testimony on that. My question was why does your office 
tell the court August 2007, August 2008, February 2007, January 
2008?
    Mr. Fleming. We are asked to provide projections that we 
are able to give the court or to the petitioners an idea of how 
we are focusing on our production.
    The Chairman. So if you told the court, in June of 2005, 
that you figured you would issue a final determination in 
February 2007, a year and a half ago, what caused that judgment 
to be so bad in 2005?
    Mr. Fleming. There are administrative occurrences that take 
place. We have litigation that we have to attend to that has 
deadlines, so we have to rearrange our resources at particular 
times. We have the issue of making sure, though, that the 
petitioners are notified of these particular extensions and why 
those extensions are needed.
    The Chairman. I understand you are notifying them, and that 
is what causes me to ask why are you notifying them if, in 
2005, you said you would finish in 2007, a year and a half ago. 
You have not come to us saying, look, we can't meet deadlines 
we are promising tribes, give us some resources. I don't 
understand it. It looks to me like you say, well, it is 
administrative. You know, my colleague and I, Senator 
Murkowski, have watched these Federal agencies act like they 
are wading through wet cement for years and years and years.
    Mr. Fleming. Well, let me give you an example. When the 
proposed finding came out for the Little Shell, through our 
Federal acknowledgment information resource database, we were 
able to scan the response, and that created, then, an overall 
administrative record of 20,116 documents, with a total page 
count of 67,000 pages of documentation. That is quite a bit of 
material to review for a final determination overall. We have 
been able to develop an image system to allow for faster 
review, but you multiply that by this group and other groups, 
and the limitation of our teams, we are only able to do what we 
can.
    The Chairman. You know, I don't want you to make decisions 
hastily; I want you to make good decisions. But I don't have 
any idea how we measure your performance. You take whatever 
time you decide to take and miss deadlines and tell me, well, 
it is administrative.
    Let me ask further, if I might. I am just asking about the 
Montana one because they set out what specifically you had told 
the Federal court and what you had represented in writing you 
would do and you have not done. I am only saying that if I were 
a petitioner, I would be enormously frustrated because it is 
not as if they have waited for six months or six years; in some 
cases it is 20 years.
    Ms. Tucker, in her testimony, made the point that the BIA 
will address other petitions even though they were submitted 
years after Muscogee and will not expend time on the Tribe 
because it cannot produce certain documents.
    If that is the case--and I don't know if it is, but if that 
is what Ms. Tucker says, and they cannot produce the documents 
because the documents don't exist. If that is the case, is 
there an alternative to coming to the Congress? Is the 
alternative to stay with you and wait until five or ten or 
fifteen years until you have told her you can't produce the 
documents, so your Tribe cannot possibly exercise the Federal 
recognition process at Interior? The only alternative would be 
to go to Congress. What is the alternative for Ms. Tucker?
    Mr. Fleming. Well, the group was provided a technical 
assistance review letter, and in that letter it revealed that 
the Department had concerns over the Indian entity 
identifications, we had concerns over their continuous, 
distinct community, their continuous leadership. They had 
descent difficulties and, with regard to their membership, they 
had to address individuals who could not demonstrate Indian 
descent, and some of the members may have an association with 
another federally recognized Indian tribe.
    Now, in order to respond to our technical assistance review 
letters, we advise that there are many types of documents that 
are out there to assist in this process: birth certificates, 
marriage/divorce/adoption/probate records, death certificates, 
and other primary documentation like Federal and State 
censuses. Even tax, land, and church records are available to 
help verify this process. And we stand ready to advise groups 
such as Muscogee Nation of Florida on how to address these.
    This group is fifth on the waiting list and we do have a 
projected schedule of our current active cases and our cases 
that are waiting for active consideration.
    The Chairman. I have been one of the strongest supporters 
here in Congress saying I believe tribes should go through the 
process we have established for the tribes, but that only works 
for so long if this process does not move along. And I am not 
suggesting moving it along in six months or sixteen months, but 
we have got people waiting year after year after year, in some 
cases decades. Somehow, you are going to wear out your welcome 
with the Congress and we are going to have people in Congress 
pushing, with sufficient strength, that the recognition process 
doesn't work because we have no method by which to evaluate 
your work; you make promises and don't keep them, and you say, 
well, we are busy, it is just administrative.
    So I have been a strong supporter, as you know, but the 
only way that we can continue to support this process is if the 
process actually works. You need more people? Ask us for more 
people. Set deadlines, keep the deadlines. But this is not 
fair, in my judgment.
    I want to ask Dr. Rountree a question. You are here on 
behalf of six Virginia tribes is that correct? But my 
understanding is there are other Virginia tribes that are 
unrecognized, is that correct?
    Ms. Rountree. There are two other State recognized tribes, 
both with reservations.
    The Chairman. And both have reservations.
    Ms. Rountree. Yes, they both have reservations.
    The Chairman. They are not seeking Federal recognition?
    Ms. Rountree. One is going to be seeking it eventually 
through the BIA; the other seems to be on hold, from what I can 
learn.
    The Chairman. And why is that the case? I mean, why----
    Ms. Rountree. Why are they on hold? I don't know, they 
don't tell me.
    The Chairman. Well, the reason I am asking the question is 
the Governor and the Senator and the Congressman made the point 
about what has happened in Virginia that appears in the 
rearview mirror as almost criminal, probably is criminal by 
today's cultural standards, what was done to American Indians 
there. It seems to me that the application would logically have 
been on behalf of all tribes similarly situated for Federal 
recognition.
    Ms. Rountree. It seems that way to me, but they did not 
consult me.
    The Chairman. And who are they?
    Ms. Rountree. The two reservation groups. They did not tell 
me, they didn't ask should they be included. I don't know what 
their negotiations were with the six tribes.
    The Chairman. Would you see if you can determine what that 
is and submit it for the Committee? I will make further 
inquiries as well, because if we are going to deal with the 
issue of Virginia, I am just curious why, if there are more 
tribes who are similarly situated, would not have been part of 
the petitioning.
    Ms. Rountree. I can only make an educated guess at this 
point because, as I said, I have not talked to people. My 
educated guess is that they are not particularly hopeful even 
of their own getting through the BIA, and they are also leery 
of going through Congress. They have been put through even 
worse things by Dr. Plecker than the six non-reservation 
tribes, much worse.
    The Chairman. Mr. Fleming, did you have observations about 
that?
    Mr. Fleming. You had inquired what the two tribes were, the 
Pomonkey and the Mattaponi. The Department has 12 formal 
petitioning groups from Virginia, and the bill only pertains to 
six of those groups. Of the 12 petitioning groups, we have two 
Rappahannock groups, two Chickahominy groups, and two Mattaponi 
groups. We also have two Monacan groups; one is located in 
Virginia and the other one is located in West Virginia. So it 
is an issue that we would hope that if these groups continue 
through the acknowledgment process, if there is any overlapping 
or if only partial groups are presented, our ultimate hope is 
that whatever tribe is recognized, be it through the Department 
or through Congress, that you are recognizing a whole tribe and 
not a partial or part of a tribe.
    The Chairman. Well, I am going to ask the staff, Senator 
Murkowski's staff and my staff, to inquire in Virginia to try 
to understand what this means. My understanding was that there 
were up to 12 in Virginia, and there are six that are brought 
together in this legislation. I am not quite sure I understand 
why that is the case. I do understand the powerful testimony 
given today by the Governor and our two colleagues in Congress, 
but I want to try to understand what the universe of actions 
might be by the Federal recognition process or the Congress.
    Dr. Rountree, did you have something else to add?
    Ms. Rountree. Only one other thing. I was answering for the 
State recognized tribes who do not overlap with one another.
    The Chairman. All right.
    Senator Murkowski, I took more time than I perhaps should 
have. Thank you for being patient.
    Senator Murkowski. No, thank you. Mr. Chairman, I also want 
to include--Senator Martinez has a letter that he apparently 
would like placed in the record for the Muscogee Tribe of 
Florida.
    The Chairman. Without objection.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Senator Murkowski. If you could just, very quickly, with 
the Little Shell Tribe, Chairman Sinclair, you have been in 
this process now for 30 years, is that correct?
    Mr. Sinclair. Yes.
    Senator Murkowski. And, Chairman Tucker, Muscogee has been 
in process for about 30 years, is that correct?
    Ms. Tucker. Yes. Our first petition was written by an 
assistant professor at Pensacola Junior College and was filed 
in late 1977 and was returned in 1978 with a number. We had a 
roll and a petition, and the new regulations were returned to 
us.
    Senator Murkowski. Chairman Yob, how long for the Ottawa, 
then?
    Mr. Yob. In our current efforts, we put our letter of 
intent in in 1994.
    Senator Murkowski. And, Dr. Rountree, with the Virginia 
tribes, how long has this been underway with the BIA?
    Ms. Rountree. With the BIA? Most of them sent in petitions 
to--sorry, letters of intent to petition in 1978. There have 
been some other groups that I don't work with who have appeared 
since then and sent in letters later.
    Senator Murkowski. Well, the reason I ask is because Mr. 
Fleming has indicated that the preference, of course, is to go 
through the process; and I would agree with Chairman Dorgan, 
that is the process that we have put in place. There is good 
reason for it and it is important to follow that, and only do 
you seek the legislative solution if there is an overriding 
reason--and those are your words, Mr. Fleming--to bypass the 
administrative process.
    But you have indicated that we don't want to go to the 
legislative process because it avoids scrutiny, and I guess my 
question to you is when you have 30 years here with the Little 
Shell and 30 years with the Muscogee and 30 years with--excuse 
me, not quite 30 years, 17 and close to 30, how is this 
avoiding scrutiny?
    Mr. Fleming. Senator Murkowski, a good part of the time is 
work that is done on both sides. You have a petitioning group 
that is trying to research evidence to apply under the seven 
mandatory criteria, so, as a group submits a letter of intent, 
that is not the fully documented petition at the very 
beginning, and in some cases these groups have taken over 20 
years to do the research.
    One of our cases of a group in New England petitioned and 
put a letter of intent in 1978 but did not submit documented 
petition material until 1998. Yet, we get blamed for that 20-
year research project that is done by volunteers, it is done by 
limited resources by the groups. The groups may go through some 
leadership problems and such. This is why, in our directive, we 
wanted to address how the Department can deal with groups that 
do go through splintering problems. The moment you have a 
dispute between two leaders, sometimes their records are moved 
and taken away, and then we get a barrage of Freedom of 
Information Act requests.
    Senator Murkowski. And I can clearly appreciate that you 
can have a build-up of time and it is not necessarily on the 
agency's ends, that there are other issues at play then. So it 
is not as if we want to say, okay, nothing should extend beyond 
10 years or set an arbitrary number, but when you made the 
comment that somehow or other seeking a legislative solution 
could be viewed as an attempt to avoid scrutiny, I would 
suggest that, at least with these groups that we have before us 
today, the scrutiny has clearly been there, based on what I 
have seen.
    I want to try to understand what, in your opinion, would 
qualify, then, as an overriding reason to bypass this 
administrative process. And let's just use two examples, 
whether it is Muscogee or whether it is the Little Shell, where 
you have 30 years between the time the letter of intent has 
been filed and where you are in the process now. So you clearly 
have I think what most people would consider to be adequate 
time to review and to exchange and to get to the documentation.
    The other situation that, in my mind, might be a compelling 
reason is the story that we have heard today about the Virginia 
tribes, and the fact that you may be requesting documentation 
or information that does not exist.
    And I think, Chairman Tucker, you have mentioned this as an 
issue as well.
    So if these two situations don't qualify as an overriding 
reason to bypass, what would? What has, in your opinion, 
constituted an overriding reason?
    Mr. Fleming. I would look to the recent directive. In the 
directive is a provision that allows for an Indian tribe that 
has had long historic State reservation status. In the 
directive, if the group is able to demonstrate that, then they 
can go to the head of the waiting list, because, with that 
long-standing reservation status, there is considerable State 
documentation because of that State relationship. I would say, 
in those cases, there you have an overriding factor.
    The groups that are before us right now have had, and some 
still do, a lot of questions with regard to their Indian 
ancestry, to some that have questions regarding the continuous, 
distinct community; some have questions over political 
influence and leadership. Some may even be associated, as I 
mentioned earlier, with another federally recognized Indian 
tribe.
    You want all of that to be clear and all of that cleared 
and understood before they are either recognized under our 
process, and I would think you would want it clear before you 
recognize them through a Federal statute.
    Senator Murkowski. I understand what you have said. I don't 
know that any who are represented here today would suggest that 
that is making this process any more defined for them and their 
quest.
    One last quick question. Then, if I have additional, I will 
go ahead and submit them to the record.
    I think it was you, Chairman Tucker, that mentioned that 
one of the reasons that you are seeking the Federal recognition 
through Congress is the financial hardship issue, and the 
matter of limited funding.
    Ms. Tucker. Yes.
    Senator Murkowski. We have all had to deal with lawyers at 
one point in time and pay lawyer's fees, and they are not 
cheap. Do you have any idea of what you have had to pay as you 
have sought this recognition over the course of these decades? 
What are we talking about in terms of dollars?
    Ms. Tucker. Millions.
    Senator Murkowski. Millions?
    Ms. Tucker. Yes. Easily.
    Senator Murkowski. Chairman Sinclair? Similar situation?
    Mr. Sinclair. I think the lawyers alone, in our case, I 
think our last estimate was they put $1 million, but most of it 
has been pro bono because we don't have any money. But their 
patience, I think, is growing thin. You know, we are kind of at 
the end.
    Senator Murkowski. It speaks to a process that, again, as 
Chairman Dorgan has noted, we want to make sure that when you 
utilize the process that we have set up through the agency to 
provide for this recognition, that it not be a--I think Senator 
Tester used the word--generational quest and a quest that can 
literally put you in a bankrupt situation or a financial stress 
that you look at and you say we simply can't even avail 
ourselves of this option because we don't have the time and we 
don't have the money. We have to have better systems in place. 
I would like to think that, with these guidelines that are out 
there, that is helping somewhat, but it sounds like there is 
more that remains to be done.
    Mr. Fleming?
    Mr. Fleming. Well, I wanted to point out that, in 
particular for the Virginia groups, for example, under the 
directive, there is a provision that allows for a group to only 
be burdened with documenting from 1789, which was when the 
United States was created through its governing document. So 
rather than 1607 to the present, they only need to document 
from 1789 to the present. By having that provision in there, 
they are relieved of 182-year evidentiary burden, and that is 
very helpful in their case. We have requested documentation 
from Dr. Rountree, and I believe even Senator McCain had asked 
for Dr. Rountree to provide the office with whatever 
documentation. We have not received anything yet, but we look 
forward to receiving documentation from all of these groups and 
hope that the documentation meets the seven mandatory criteria.
    Senator Murkowski. Well, I am sure that that is 
appreciated, but I will tell you, when the new passport 
requirements were being discussed and Alaska Natives in my 
State knew that they were going to be required to have a 
passport to go over into Canada, I can tell you that there was 
great concern by many elders in our villages because they 
simply have no documentation, and these are people that are 
living here today. So to say that, well, we have kind of 
forgiven them for the first 150 years and they just need to 
find it from 17-whatever--I forget the date that you gave me.
    Mr. Fleming. 1789.
    Senator Murkowski. 1789, thank you. We recognize that it is 
easier said than done.
    Mr. Fleming. Right. When I was registrar for the Cherokee 
Nation, we worked with many families that were born outside of 
a hospital, and many of them did not have the standard birth 
certificates. So the staff had to work with the families to 
establish what are known as delayed birth certificates, which 
is--as we know, the birth certificate is one of the key 
cornerstones of all of what is required by many agencies. So it 
is helpful when you have a trained staff that can work with 
individuals and with groups to help them meet the requirements.
    And we are very excited by the fact that we now are on the 
internet. As you know, our agency has been off of the internet 
for over six and a half years. Our office was one of the first 
to get their material up, and it was actually put online today 
so that groups, interested parties, the general public can take 
a look at our decisions, our regulations, and many of the items 
that are necessary. Before we were cut off the internet, we 
only had 20 documents that were on our website. We have over 
500 now, just at the flick of a switch today. So we are trying 
to be transparent and helpful.
    Senator Murkowski. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Well, again, let me thank all of you who have 
traveled to Washington to provide testimony today. As I 
indicated, the Committee is holding this hearing because we 
want to gather additional information for the purpose of making 
some decisions as we go forward when the new Congress begins.
    This Committee is adjourned.
    [Whereupon, at 3:50 p.m., the Committee was adjourned.]
                            A P P E N D I X

   Prepared Statement of Hon. John Warner, U.S. Senator from Virginia
    Good Afternoon Mr. Chairman and colleagues on the Senate Indian 
Affairs Committee. I thank you for holding this hearing today regarding 
recognition of six Virginia Indian tribes. For years now I have worked 
closely on this matter with these tribes and with my colleagues in the 
Virginia Congressional delegation.
    My message today is a simple one: While I strongly support federal 
recognition for these Virginia tribes, I do have a serious concern that 
H.R. 1294, the bill before the Committee, could produce the unintended 
consequence of allowing Virginia Indian Tribes greater rights to 
conduct gambling activities beyond the limitations currently 
established under Virginia's laws.
    I shared these same concerns about gaming with the Committee at its 
June 2006 hearing on a similar bill. At that time, I noted that I 
strongly believe that Virginia's Indian tribes deserve federal 
recognition. But, I also noted then that I share the concern of some 
people that federal recognition could--without appropriate court-tested 
safeguards--unintentionally result in gaming in Virginia that is 
contrary to the letter and spirit of Virginia's laws. At that hearing, 
I committed to working with the Virginia tribes and others to ensure 
that a federal recognition bill would not result in such an unintended 
consequence.
    Despite my best efforts, the best efforts of the tribes, and the 
best efforts of others in the Virginia Congressional delegation, a 
consensus has not been reached on this matter. I remain concerned that 
the House passed bill could produce the unintended consequence of 
allowing Virginia Indian tribes greater rights to conduct gambling 
activities beyond the limitations currently established under 
Virginia's laws.
    Last year, I specifically asked the Congressional Research Service 
to review the House passed language on gambling. I respectfully submit 
for the record the CRS memorandum reviewing this legislation. In the 
memorandum, CRS states that the gaming language in H.R. 1294 has never 
been tested in court and that it is not possible ``to predict or assert 
with any degree of certainty that H.R. 1294 provides `iron clad' 
protection against gaming.''
    It is important to recognize that Congress has previously passed 
legislation that has been upheld in court with respect to federal 
tribal recognition and gaming limitations. It is my hope that the 
Committee would work with the Virginia tribes and the Virginia 
Congressional delegation to examine these statutes and court cases and 
determine if such language could serve as a model to help move this 
very important recognition bill forward in an amended fashion.
    Mr. Chairman, I hold the view that a consensus can be reached to 
move this legislation forward. The Virginia tribes deserve recognition, 
and I believe federal recognition can be achieved while respecting 
Virginia's laws on gaming. Congress has passed similar laws for others 
tribes in other states, and courts have upheld those laws. Those 
efforts should serve as our path forward.
    The case for federal recognition of these Virginia tribes is clear. 
To date, the Federal Government has acknowledged more than 500 Native 
American tribes, yet the Federal Government has not done so for six of 
the tribes that first greeted Captain John Smith upon the shores of 
Jamestown more than 400 years ago. While I recognize that there is an 
administrative process that is also available to obtain recognition, 
the case is well established that, because Virginia, many decades ago, 
destroyed vital documents, that this process is not appropriate for 
these tribes.
    In sum, Mr. Chairman, it is my hope that a federal recognition bill 
can pass the Congress and be signed into law with court-tested 
safeguards in place to protect our state laws on gaming.
    Given the fact that legislative activity in the 110th Congress 
could come to a close in the coming days, I recognize that a consensus 
on this matter may not be achieved this year. If that is indeed the 
case, it is my hope that you and others on this Committee will help 
move federal recognition legislation with court-tested gaming 
safeguards in the next Congress.
Attachment

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
   Prepared Statement of Rev. Jonathan M. Barton, General Minister, 
                      Virginia Council of Churches
    Chairman Dorgan, members of the Senate Indian Affairs Committee 
Governor Kaine, Senator Webb, Congressmen Moran, Congressman Scott, 
tribal leaders from the Virginia Tribes, thank you for your leadership 
and the opportunity to provide testimony today. My name is Jonathan 
Barton and I serve as the General Minister for the Virginia Council of 
Churches. I ask your permission to include my previous testimony. I 
would like to express my deep appreciation to the members of Virginia's 
six tribes present here today for inviting the Council to stand with 
them in their request for Federal Acknowledgment. The Virginia Council 
of Churches stands with the Virginia tribes today in solid support of 
the ``Thomasina E. Jordan Indian Tribes of Virginia Federal Recognition 
Act of 2007.''
    The Virginia Council of Churches, established in 1944, is the 
combined witness of 37 governing bodies of 18 different Catholic, 
Orthodox, and Protestant denominations located within the Commonwealth 
of Virginia. A list of our member denominations is appended to my 
written comments. During our 64-year history, we have an established 
record for fairness, justice, and the dignity of all peoples. We stand 
today grounded in our faith and in our history and values. Faith means 
living not by our feelings but by our commitments. The assurance of 
things hoped for is often less about when a hoped-for dream becomes a 
reality than why that dream must become reality. The conviction of 
things not seen isn't always about when or even how it will come to 
pass but rather why it deserves our energies in the first place. We 
hold fast to our faith that our Virginia Tribes will be recognized by 
this Congress because we have assurance in the rightness of it and have 
the conviction necessary to see it through.
    Four hundred and one years ago when Captain Christopher Newport 
sailed into the Chesapeake Bay, a relationship between the church and 
Virginia's Indigenous Peoples began. There is little doubt in the 
historical record that one of the purposes of Jamestown was to 
establish the Church of England. In 1999 both chambers of the Virginia 
General Assembly agreed to House Joint Resolution 754 urging Congress 
to grant Federal Recognition to the Virginia Tribes. Our legislature 
asked the state's delegation in Congress ``to take all necessary steps 
forthwith to advance it.'' Six years ago when I testified before this 
Committee and the House Committee on Natural Resources, Senator Ben 
``Nighthorse'' Campbell made the comment: ``You know Rev. Barton, the 
Indians and the church have not always gotten along very well.'' The 
church has much to repent in our early missionary efforts. My presence 
here today represents a desire to repent for past sins. These early 
immigrants who came to these shores in the early 1600s failed to find 
the Image of God in the native people they encountered. These early 
settlers were guided by the ``Doctrine of Discovery.'' Under this 
principle, European powers lay claim to lands within the New World and 
the continent of Africa. This Doctrine evolved from various papal 
bulls, dating back to 1493 provided a sense of Divine Calling, 
outlining how Europeans could claim and acquire land from the Indian 
Nations. They believed that in order to be a Christian, they needed to 
look, live, and speak with an English accent. Even though the 
missionaries were excessively zealous, the scriptures they brought with 
them eventually provided a source of strength for our Virginia Tribes 
to endure four centuries of oppression and discrimination. As 
settlements increased in Virginia, missionaries continued to reach out 
to the tribes. While this relationship was often tense the message took 
root and began to flourish within the tribes. By the middle of the 19th 
Century and up through the middle of the 20th century tribal churches 
were established and became a focal point of the community. Even during 
the period of the Racial Integrity Act when the Commonwealth was 
asserting there are no Indians here Baptist, Methodist and Episcopal 
Indian Churches continued to serve our tribes. These relationships 
continue today.
    During that same hearing, Senator Allen asked me about concerns the 
Council may have regarding gaming. At that time, I stated the Council's 
opposition to all forms of gaming and our conviction that if gaming 
comes to Virginia it will not be the Virginia Tribes who are the ones 
to introduce it. This is still our strong conviction today.
    The cultural landscape is similar with each of the Virginia tribes. 
As you enter their land, you find the church, the school and the Tribal 
Circle. As you approach the Circle you can hear the sounds of the 
Tribal Drum, you can feel the heartbeat of life move through your body, 
declaring you are on sacred ground. It is here where the tribal 
community is grounded. You must listen to the sound of the drum of the 
past, so that you can sing in the present and dance into the future. 
Here is where the faith and traditions of the Elders are passed to new 
generations.
    It has been a blessing for me to know and work with each of the 
chiefs of our Virginia tribes. I know them to be persons of great 
integrity and moral courage. Each brings strong leadership to their 
tribes. Each brings unique and special gifts, and they all share a 
common respect for their past and vision for the future.
    In 2007, Virginia hosted America's 400th Anniversary Commemorations 
with special events drawing international guests and visitors. We 
welcomed the Queen of England, several visits from the President and 
Vice President, as well as several special signature events. In 
addition, the churches in Virginia held several of their own events 
recognizing significant events in the life of the church. The Virginia 
Tribes played a significant role in each of these events. The events 
and excitement of 2007 are for many a memory now and Virginia's 
Indigenous People, who have lived on this land for a thousand 
generations, and who greeted the English as they landed in 1607, are 
still not recognized. It seems that our tribes are not only frozen in 
history; they seem frozen in the indifferent ice of Dante's Inferno. We 
are called to review our complete history, reflect upon it, and act as 
a people of faith mindful of the significance of 1607. We are also 
called to remember that our Tribes are still here. The people of 
ancient Israel wandered in the desert wilderness for forty years. Our 
tribes have wandered the desert of their native land for ten times 
forty years. Now they stand on the edge over looking the promise and 
wonder if like Moses they will not be able to enter. If the dream of 
federal recognition has been deferred to the next generation or will 
they, at last, be able to cross over the Jordan River.
    The people in our churches and communities now look at the 
significance of these events differently. What represented newness of 
hope and opportunity for some was the occasion for oppression, 
degradation, and genocide for others. For the church this is not just a 
time for celebration but a time for a committed plan of action insuring 
that this ``kairos'' moment in history not continue to cosmetically 
coat the painful aspects of the American history of racism. This nation 
is a great nation with high ideals and hopes for all people. While we 
strive to reach these lofty goals we have also fallen short of the 
mark. What continues to make us great is that we acknowledge our flaws 
and redress the wrongs, always seeking a more perfect union. These six 
Virginia Tribes; the Chickahominy, the Chickahominy--Eastern Division, 
the Upper Mattaponi, the Rappahannock, the Monacan, and the Nansemond, 
stand before you today after a four hundred year journey asking only 
that you honor their being, honor their contributions to our shared 
history, and honor their ancestors by acknowledging they exist. This 
simple request is vital to the healing of the broken circle, broken 
four centuries ago when cultures collided and forever changed the 
history of the world. It is about the present and the recognition that 
despite the journey these tribes have survived and are still here. It 
is about taking their proper place among the other 563 tribes currently 
recognized by the United States. It is about the future that future 
generations may experience the fullness of life intended by their 
forbearers and their Creator. Let us mend the Circle so that we may 
move forward into the future. Let me close with the words from one of 
the songs created and recorded for the Jamestown observance in 2007 by 
``Anniversary Voices.''
    Remember the Many.

        We are all part of the sacred earth, every deer, every stream, 
        every tree.

        We have learned to respect all living things, and to live in 
        harmony.


    We are riders on the sands, the sands of time, the Creator's in the 
wave in the shore.

        We have been here for more than ten thousand years.

        We will be here for ten thousand more!

        Stand where I'm standing; take a look at my view.

        How should I feel? I was here before you.

        The time has arrived recognition is due.

        Remember the many who've become the few!

    The member Communions of the Virginia Council of Churches, strongly 
encourage you to remember the few, recognize our tribes pass the 
Thomasina E. Jordan Indian Tribes of Virginia Federal Recognition Act 
of 2007.
                                 ______
                                 
  Prepared Statement of Hon. Gene Adkins, Chief, Chickahominy Indian 
                         Tribe-Eastern Division

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
Prepared Statement of Hon. Kenneth Adams, Chief, Upper Mattaponi Indian 
                                 Tribe
    I am Kenneth Adams, Chief of the Upper Mattaponi Tribe of King 
William County, Virginia. I am submitting this statement on behalf of 
the Upper Mattaponi Tribe seeking Federal acknowledgement through H.R. 
1294, The Thomasina E. Jordan Indian Tribes of Virginia Federal 
Recognition Act of 2007.
    There is overwhelming evidence of the continuing existence of the 
Upper Mattaponi Indian Tribe. We have lived close to the upper reaches 
of the Mattaponi river, as documented by John Smith of the Jamestown 
colony in the early 1600s. Today, the town of Aylett on the Mattaponi 
River incorporates ancestral land of the Upper Mattaponi Indians. Other 
written accounts and maps tell of a concentration of Indians in the 
vicinity of Aylett from the colonial era onward.
    Records of the 20th century include the establishment of Sharon 
Indian School in 1919 to educate the children of the Upper Mattaponi 
Tribe. Today Sharon Indian School is listed on the National Register of 
Historic Buildings as the only public Indian School still existing in 
the Commonwealth of Virginia. After the school was built, the Upper 
Mattaponi used the school for church worship services until 1942, when 
Indian View Baptist Church was built, the name reflecting the 
membership of the tribal people of the Upper Mattaponi Indian Tribe.
    From the late 1940s into the late 1950s, Upper Mattaponi children 
attended high school and college at Bacone College in Muskogee, 
Oklahoma, a school established in 1880 for the education of American 
Indians. In 1892 from the King William County Superintendent of 
Education and again in the 1940s from the Tribal Chief, educational 
assistance was requested from the Bureau of Indian Affairs for the 
Upper Mattaponi Indian Tribe.
    Draft cards of the First and Second World Wars document many of the 
Upper Mattaponi warriors as Indians, and marriage records from 1853 
forward document the Upper Mattaponi as Indians.
    These are but a few of many reasons we should be officially 
acknowledged by the Federal Government as an Indian Tribe. We have 
spilt our blood and given our lives for this nation in the 
Revolutionary War and the wars of the 20th century. We are only asking 
this government for one thing and that is proper recognition of the 
Upper Mattaponi Indian Tribe.
                                 ______
                                 
   Prepared Statement of Hon. Stephen R. Adkins, Chief, Chickahominy 
                              Indian Tribe
    Thank you Chairman Dorgan and other distinguished members of this 
committee for allowing me to submit testimony in support of the 
Thomasina E. Jordan Indian Tribes of Virginia Federal Recognition Act 
of 2007--H.R. 1294. This bill and the history of the six Virginia 
tribes seeking federal acknowledgement was researched diligently and 
studiously by Senator Jim Webb before he agreed to support the bill. I 
thank Senator Webb for giving this bill due diligence and his 
subsequent unflagging support of the merits of this bill. A hearing on 
our Federal Recognition was held by this committee in 2006. I am 
honored to submit my testimony to this Senate Committee today on behalf 
of the six Tribes named in H.R. 1294 the Eastern Chickahominy, the 
Monacan, the Nansemond, the Upper Mattaponi, the Rappahannock, and my 
Tribe the Chickahominy. I feel deeply privileged that His Excellency, 
Timothy M. Kaine, Governor of the Commonwealth of Virginia, who in his 
inaugural address pledged his strong support for Federal Recognition of 
the Virginia Tribes is here today giving oral testimony in support of 
H.R. 1294. I wish to thank Dr. Helen Rountree, a renowned 
anthropologist specializing in the heritage of the Virginia Tribes, who 
worked on the petitions we filed with the BIA, for providing expert 
testimony before you today and who is prepared to assist with any 
questions you may have about our history. And finally I thank Rev. Jon 
Barton from the Virginia Council of Churches who has worked tirelessly 
in our effort to gain Federal Recognition and who is supplying written 
testimony today.
    Chairman Dorgan et. al., I am sure you are well aware of the events 
that occurred in Virginia and the United Kingdom commemorating the 
400th anniversary of the first permanent English Settlement in America 
in May 1607. The settlement became known as Jamestown and is located on 
the James River in Tidewater Virginia. On Anniversary Weekend at 
Jamestown, May 11-13, 2007, visitors from all over the world including 
leaders representing the United States government, Great Britain, 
Native Americans and African Americans et. al., gathered acknowledging 
the birth of this Great Republic, the United States of America, which 
blossomed at Jamestown. In July 2006, a delegation of 54 tribal members 
representative of the gender and age demographics of the Tribes 
recognized by the Commonwealth of Virginia had the opportunity to visit 
the United Kingdom as part of its 2007 Commemoration activities. For 
many of us it was a first time visit to St. George's Church at 
Gravesend, the final resting place of Pocahontas, the daughter of 
Paramount Chief Powhatan and the wife of John Rolfe. History tells us 
that Pocahontas died when she returned with John Rolfe to England in 
1616.
    The impact of our experience in Gravesend is something I want to 
share with you because it was beyond what any of us could have possibly 
imagined. The congregation of St. George's Church brought home to us, 
the very real connection the British people feel with our heritage. And 
for us, who have experienced and know so well what has happened to our 
people since the days of Pocahontas, the connection we felt to both the 
congregation and Pocahontas was palpable and real. The British have 
paid honor and tribute to her in a manner that no member of her family 
or her descendants has ever received in this country. This feeling of 
respect and honor in the church through its living congregation 
suffused the entire Virginia Indian delegation. But to my utter 
amazement, this attitude of honor and respect transcended the spiritual 
and emotional service within the church and was extended to us in every 
venue we attended from Kent University, to Kent County Council, to the 
House of Commons and the House of Lords. If you would indulge me, I 
would like to share with you the words from a plaque which hangs on a 
wall of St. George's Church, I believe from these words you can sense 
the very sincere regard British people feel for Pocahontas. ``This 
stone commemorates Princess Pocahontas or Metoak daughter of the mighty 
American Indian Chief Powhatan. Gentle and humane, she was the friend 
of the earliest struggling English colonists whom she nobly rescued, 
protected, and helped. On her Conversion to Christianity in 1613, she 
received in Baptism the name Rebecca, and shortly afterwards became the 
wife of John Rolfe, a settler in Virginia. She visited England with her 
husband in 1616, was graciously received by Queen Anne wife of James I. 
In the twenty second year of her age she died at Gravesend preparing to 
revisit her native country and was buried near this spot on March 21st 
1617.
    I believe for our people to go back to Great Britain and be 
embraced by this church congregation was a significant reconciliation 
and healing. As descendants, we have not felt the honor here at home 
that those in Great Britain both feel for Pocahontas and bestowed upon 
us. Through this visit to Gravesend, we saw Pocahontas as more than the 
legend we live behind, we saw her as the first to brave the new world 
that opened up with first contact by the English. We saw Pocahontas as 
one with whom we can identify, as a soul who today can still touch us, 
and remind us of whom we are and remind us that we have a proud 
heritage. She is not a myth, for, she is still inside all of us, and 
her death and burial in England, remind us of how far and challenging 
our path has been since she braved that voyage to England. She was 
brave and she was alone. It was a tremendous experience to step into 
that church and feel the love of that British congregation. 
Appropriately, the St. George's Church Guide, contains this prayer:

        May your Church, Lord, be a light to the nations, the sign and 
        source of your power to unite all men. May she lead mankind to 
        the mystery of your love? Amen.

    I could tell you the much publicized story of the 17th century 
Virginia Indians, but you, like most Americans, know our first contact 
history. I wish there was time today to tell the full story of what has 
happened to the Virginia Tribes since Pocahontas went to England to the 
Court of Queen Anne. The story of Chief Powhatan and his daughter 
Pocahontas is well known across this land, her picture being in this 
very capitol building with her English husband John Rolfe. But, what 
about our story, for years the Commonwealth of Virginia did not care 
about our story? Our public school textbooks had scant mention of who 
we are. So, what do you know or what does mainstream America know about 
what happened in those years between the 17th century and today. The 
fact that we were so prominent in early history and then so callously 
denied our Indian heritage is the story that most don't want to 
remember or recognize. In 2006 & 2007, the Virginia Indian Tribes, were 
a part of the commemoration of Jamestown. In 2007, when Jamestown was 
visited by the Queen of Great Britain and the President of the United 
States, the Virginia Tribes gained a much deeper understanding of who 
we are, fueled in part by our learning gained from our trip to Great 
Britain and in our involvement in researching the truth about the 
underpinnings of the first permanent English Settlement at Jamestown 
and, finally, what our contributions meant to its success. Our 
connection to Pocahontas and, by extension, to Great Britain must come 
full circle and extend to the Congress of the United States of America. 
We must feel the same honor and love from leaders of the United States 
of America as we do from the people from Great Britain with whom our 
last treaty was signed in 1677.
    I and the Chiefs from Virginia, stand on the shoulders of many 
others besides Pocahontas and Powhatan. One story that has always made 
me sad, and which brings in a different picture than the love we 
experienced in Great Britain, is that of the Paspahegh led by Chief, 
Wowinchopunk whose wife was captured and taken to Jamestown Fort and 
``run through'' with a sword, whose children were tossed overboard and 
then their brains were ``shot out'' as they floundered in the water, 
and whose few remaining tribal members sought refuge with a nearby 
tribe, possibly the Chickahominy. With this horrific action in August 
1610, a whole Nation was annihilated. A Nation who befriended 
strangers, and, ultimately died at the hands of those same strangers. 
As we commemorated Jamestown 2007 and the birth of our Nation, those of 
Indian heritage in Virginia were also reminded of this history.
    We are seeking recognition through an act of congress rather than 
the BIA because actions taken by the Commonwealth of Virginia during 
the twentieth century erased our history by altering key documents as 
part of a systematic plan to deny our existence. This state action 
separates us from the other tribes in this country that were protected 
from this blatant denial of Indian heritage and identity. The 
documentary genocide the Virginia Indians suffered at the hands of 
Walter Ashby Plecker, a rabid white separatist, who ruled over the 
Bureau of Vital Statistics in Virginia for 34 years, from 1912 to 1946 
was well documented in an article written by Peter Hardin of the 
Richmond Times Dispatch in 2000. Although socially unacceptable to kill 
Indians outright, Virginia Indians became fair game to Plecker as he 
led efforts to eradicate all references to Indians on vital records. A 
practice that was supported by the state's establishment when the 
eugenics movement was endorsed by leading state universities and was 
further supported when the general assembly enacted the Racial 
Integrity Act in 1924. A law that stayed in effect until 1967 and 
caused my parents to have to travel to Washington D.C. on February 20, 
1935 in order to be married as Indians. This vile law forced all 
segments of the population to be registered at birth in one of two 
categories, white or colored. Our anthropologist says there is no other 
state that attacked Indian identity as directly as the laws passed 
during that period of time in Virginia. No other ethnic community's 
heritage was denied in this way. Our state, by law, declared there were 
no Indians in Virginia in 1924, and if you dared to say differently, 
you went to jail or worse. That law stayed in effect half of my life.
    I have been asked why I do not have a traditional Indian name. 
Quite simply my parents, as did many other native parents, weighed the 
risks and decided it was not worth the risk of going to jail by giving 
me a traditional Indian name.
    Former Senator George Allen, as Governor of the Commonwealth of 
Virginia, sponsored legislation in 1997 acknowledging the injustice of 
the Racial Integrity Act.
    Unfortunately, while this legislation allows those of the living 
generations to correct birth records, the legislation or law has not 
and cannot undo the damage done by Plecker and his associates to my 
ancestors who endured pain and humiliation in venues disparate as 
trying to obtain marriage licenses to being inducted into the Armed 
Forces as Indian, all because of these distorted, altered, incorrect 
records.
    We are seeking recognition through Congress because this history of 
racism, in very recent times, intimidated the tribal people in Virginia 
and prevented us from believing that we could fit into a petitioning 
process that would understand or reconcile this state action with our 
heritage. We feared the process would not be able to see beyond the 
corrupted documentation that was designed to deny our Indian heritage. 
Many of the elders in our community also feared, and for good reason, 
racial backlash if they tried.
    My father and his peers lived in the heart of the Plecker years and 
carried those scars to their graves. When I approached my father and 
his peers regarding our need for state or federal recognition they 
pushed back very strongly. In unison they said. ``Let sleeping dogs lie 
and do not rock the boat''. Their fears of reprisal against those folks 
who had risked marrying in Virginia and whose birth records accurately 
reflected their identity outweighed their desire to openly pursue any 
form of recognition. Those fears were not unfounded because the threat 
of fines or jail time was very real to modern Virginia Indians.
    Chairman Dorgan, the aforementioned story is very painful and I do 
not like to tell that story. Many of my people will not discuss what I 
have shared with you but I felt you needed to understand recent history 
opposite the romanticized, inaccurate accounts of 17th-century history.
    Let me tell you how we got here today. The six tribes on this bill 
gained State Recognition in the Commonwealth of Virginia between 1983 
and 1989. The legislation of 1997 placed the burden of cost to correct 
the inaccurate vital records on the Commonwealth of Virginia, but it 
couldn't fix the problem--the damage to our documented history had been 
done. Although there were meager attempts to gain federal 
acknowledgement by some of the tribes in the mid 20th century, our 
current sovereignty movement began directly after the enactment of the 
aforementioned legislation acknowledging the attack on our heritage. In 
1999 we came to Congress when we were advised by the BAR (Bureau of 
Acknowledgement and Research) now OFA (Office of Federal 
Acknowledgement) that many of us would not live long enough to see our 
petition go through the administrative process. A prophecy that has 
come true. We have buried three of our chiefs since that prophetic 
declaration was made.
    Given the realities of the OFA and the historical slights suffered 
by the Virginia Indian Tribes for the last 400 years, the six tribes 
referenced in H.R. 1294 feel that our situation clearly distinguishes 
us as candidates for Congressional Federal recognition.
    As Chiefs of our tribes, we have persevered in this process for one 
reason. We do not want our families or our tribes to let the legacy of 
Walter Plecker stand. We want the assistance of Congress to give the 
Indian communities in Virginia, their freedom from a history that 
denied their Indian identity. Without acknowledgment of our identity, 
the harm of racism is the dominant history. We want our children and 
the next generation, to have their Indian Heritage honored and to move 
past what we experienced and our parents experienced. We, the leaders 
of the six Virginia Tribes, are asking Congress to help us make history 
for the Indian people of Virginia, a history that honors our ancestors 
who were there at the beginning of this great country. We want to 
experience the honor and love that we felt was still alive in the 
congregation at St. George's. After our visit to Great Britain I truly 
believed that Federal Recognition of the Virginia Indian Tribes would 
occur in that anniversary year. The reception we received in Great 
Britain and across the Commonwealth of Virginia convinced me the time 
was right to end 400 years of disenfranchisement. When recognition did 
not occur, there was much sadness among my people. But our hope does 
not waver. We believe in the language of the Constitution of the United 
States of America. We believe that ultimately America will do right by 
us. We believe the blood we shed in every military conflict the United 
States has engaged in will not be in vain. We believe you will 
reconcile history in this country between two cultures in a way that 
honors our history of learning to live together in peace and in love. 
That is what we want for our people, and for our nation. The acceptance 
of the invitation to visit Great Britain to share our culture and 
history to describe our contemporary lifestyles as both contributors to 
the American way of life and aspirants to the American dream and our 
decision to honor Pocahontas at her grave has strengthened our resolve 
to obtain federal acknowledgement. It has made us understand that we 
deserve to be on a level playing field with the other 562 odd tribes 
who are federally acknowledged. It has made us unwilling to accept 
being discriminated against because of both a historical oversight and 
the concerted efforts of our Commonwealth to deny to us our rightful 
heritage. The aforementioned invitation to visit Great Britain was not 
easy for us to accept. We did not know what to expect, and we were 
apprehensive. In a powerful way this visit was destined to be for it 
brought us into the history we commemorated at Jamestown in a very 
positive palpable way.
    The Commonwealth of Virginia has taken definitive actions to right 
the wrongs inflicted upon its indigenous peoples and stood with us as 
we commemorated the anniversary of the founding of the first permanent 
English Settlement which occurred 400 years ago on the banks of the 
James River at Jamestown, Virginia. We believe it is time for the 
United States Congress to stand alongside us and grant us the 
Recognition we deserve as Sovereign Nations who provided safe haven to 
the 17th-century colonists and helped give birth to the greatest Nation 
in the world.
    Again, thank you for allowing me to submit testimony on behalf of 
the six tribes in H.R. 1294.
                                 ______
                                 
 Prepared Statement of Wayne Adkins, President, Virginia Indian Tribal 
                           Alliance for Life
    I am Wayne Adkins, an assistant chief of the Chickahominy Tribe, 
and I am submitting this statement on behalf of The Virginia Indian 
Tribal Alliance for Life (VITAL), an organization of the tribes seeking 
Federal acknowledgement through H.R. 1294, The Thomasina E. Jordan 
Indian Tribes of Virginia Federal Recognition Act of 2007.
    In 1999, after the Virginia General Assembly passed a resolution 
memorializing Congress to grant them Federal Recognition, the Virginia 
Tribes united to seek recognition through Congress collectively. VITAL 
was founded at that time to, among other things, work with Virginia's 
Congressional delegation to obtain federal recognition.
    The Tribes of Virginia have been seeking federal recognition for 
nearly a century, but largely through individual tribal efforts. John 
Collier, head of the BIA in 1943, stated that it is largely ``an 
historical accident'' that the tribes of Virginia were not recognized, 
because our treaties were with England, rather than with the United 
States. For well over a century, ethnologists from various institutions 
have affirmed the identity of the Indian tribes in Virginia through 
independent, scholarly studies.
    Part of VITAL's mission is to build grassroots support within the 
larger Virginia population. Throughout this effort, we have been 
pleased with the overwhelming support we have received. Starting in 
2006, and throughout 2007, the Virginia Tribes participated in events 
commemorating the establishment of the colony at Jamestown that lead to 
the birth of the United States. At these events, we shared our history 
and culture in dance programs, panel discussions and historical 
presentations that honored the memory and contributions of our 
ancestors. And again, we received affirmation of support for federal 
recognition from all demographics and all regions of Virginia. The 
universal reaction we experience is surprise, even shock, that no 
tribes in Virginia are recognized by the United States, followed by the 
statement that recognition is appropriate and long overdue.
    A significant event during this commemoration was the trip to Kent, 
England by a delegation of Virginia Indian people. The people of Kent 
insisted that the Virginia Indians be a part of their commemorative 
events. This participation became a life-altering experience for us.
    Tribal leaders were treated as heads of state, acknowledging the 
tribal sovereignty that is still recognized by the English people. We 
were treated with much respect wherever we went. Even more important to 
many of us, we visited St. Georges, the church where Pocahontas, 
daughter of the paramount Virginia chief Wahunsenacawh (Powhatan), is 
buried. We were able to have a private worship service there and to 
worship there with the people of Gravesend. While at that site, I felt 
that we had fully reconnected with our ancestors and we had come full-
circle.
    This event, coupled with the many expressions of support by the 
people of England for our federal recognition effort, confirmed for me 
that federal recognition of the Virginia Tribes is warranted and 
strengthened my resolve to pursue it even more vigorously when we 
returned to the United States.
    Through the efforts of VITAL, tribal leaders and our Congressional 
sponsors, we have enjoyed successful hearings in each session of 
Congress since 2002. We continue to receive exceptionally strong 
support from the Commonwealth of Virginia, including recent Governors.
    The Virginia tribes are seeking federal recognition now for the 
same reasons as our ancestors who initiated efforts to obtain 
recognition in the early part of the 20th century.
    It would allow our students to participate in educational programs 
open only to federally-recognized tribes. It will also help us provide 
health care for the elders of our tribes who cannot afford health care 
on their limited incomes.
    Recognition will allow the tribes to repatriate the remains of 
their ancestors in a respectful and dignified manner. Museums and 
universities, for example, have a large number of Virginia Indian 
remains but are not required to repatriate them to non-Federally-
recognized tribes.
    Federal Recognition would place the Virginia tribes on equal 
footing with other tribes in the United States and afford us the same 
rights and opportunities they enjoy. Our tribal governments will be 
able to more fully exercise their sovereignty, helping to ensure the 
continuity and future of our tribal communities.
    Finally, Federal Recognition will officially affirm our Indian 
identity and heritage in a way that our ancestors were prohibited from 
doing by the state of Virginia. It will allow us to fulfill our 
ancestors' dream for recognition and further honor them and their 
efforts to achieve it.
    I strongly urge the Committee to mark up H.R. 1294 and position it 
for approval by the full Senate this year.
                                 ______
                                 
                                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 ______
                                 
    Attachments to the prepared statement of Hon. Ann Denson Tucker 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
